<html>
<title> - DISABILITY ACCESS IN THE NATIONAL PARK SYSTEM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
             DISABILITY ACCESS IN THE NATIONAL PARK SYSTEM

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     SUBCOMMITTEE ON NATIONAL PARKS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                         Thursday, May 11, 2006

                               __________

                           Serial No. 109-53

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-519                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                     SUBCOMMITTEE ON NATIONAL PARKS

                  STEVAN PEARCE, New Mexico, Chairman
     DONNA M. CHRISTENSEN, Virgin Islands, Ranking Democrat Member

Jim Saxton, New Jersey               Dale E. Kildee, Michigan
Elton Gallegly, California           Neil Abercrombie, Hawaii
John J. Duncan, Jr., Tennessee       Ron Kind, Wisconsin
George P. Radanovich, California     Tom Udall, New Mexico
Walter B. Jones, Jr., North          Madeleine Z. Bordallo, Guam
    Carolina                         Charlie Melancon, Louisiana
Henry Brown, Jr., South Carolina     Nick J. Rahall II, West Virginia, 
  Vice Chair                             ex officio
Luis G. Fortuno, Puerto Rico
Marilyn N. Musgrave, Colorado
Richard W. Pombo, California, ex 
    officio


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Thursday, May 11, 2006...........................     1

Statement of Members:
    Christensen, Hon. Donna M., a Delegate in Congress from the 
      Virgin Islands.............................................     3
    Pearce, Hon. Stevan, a Representative in Congress from the 
      State of New Mexico........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Harding, Dr. JR, Vice Chairman, U.S. Architectural and 
      Transportation Barriers Compliance Board, Washington, D.C..    14
        Prepared statement of....................................    16
    Kerr, Jerry, President, Disability Rights Advocates for 
      Technology, St. Louis, Missouri............................    24
        Prepared statement of....................................    25
    Masica, Sue, Associate Director, Park Planning, Facilities, 
      and Lands, National Park Service, U.S. Department of the 
      Interior, Washington, D.C..................................     4
        Prepared statement of....................................     6
    McCarthy, James, Director of Governmental Affairs, National 
      Federation of the Blind, Baltimore, Maryland...............    39
        Prepared statement of....................................    41
    Robb, Gary M., Executive Director, National Center on 
      Accessibility, Indiana University, Bloomington, Indiana....     9
        Prepared statement of....................................    11
    Schacter, Janice, Chair, Hearing Access Program, Hearing Loss 
      Association of America, Bethesda, Maryland.................    28
        Prepared statement of....................................    30
    Starnes`, Nancy, Vice President & Chief of Staff, National 
      Organization on Disability, Washington, D.C................    42
        Prepared statement of....................................    45


   OVERSIGHT HEARING ON DISABILITY ACCESS IN THE NATIONAL PARK SYSTEM

                              ----------                              


                         Thursday, May 11, 2006

                     U.S. House of Representatives

                     Subcommittee on National Parks

                         Committee on Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:00 a.m. in 
Room 1324, Longworth House Office Building. Hon. Steve Pearce 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Pearce, Christensen and Brown.

 STATEMENT OF THE HONORABLE STEVAN PEARCE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW MEXICO

    Mr. Pearce. Good morning. Today the Subcommittee on 
National Parks will receive testimony from an esteemed panel of 
witnesses on the status of disability access in the National 
Park System.
    The Subcommittee is most interested in how the National 
Park Service has worked to create a welcoming environment for 
the disabled community, to participate in recreational 
opportunities within the system. The Subcommittee is most 
interested in learning what alterations have worked for the 
Service and the disabled community, and what has not, and where 
the Service expects to be 20 years from now in terms of 
disability access.
    I will say to my colleagues at this point that I agree with 
one of the points Ms. Masica included in her statements. 
Accommodating the disabled community is very important, but the 
Service cannot be expected to address every shortcoming in the 
system. There are limits, and I agree.
    I believe that the Service should operate from a workable 
position of what is practical and feasible. Since becoming 
Chairman of the National Parks Subcommittee, I have held a 
series of oversight hearings ranging from the NPS Organic Act, 
to the NPS management policies and Directors Orders 21, to NPS 
business plans, and most recently, on visitation trends in the 
National Park System. I, along with Chairman Pombo, believe it 
is important for members of this Subcommittee to have serious 
and in-depth discussions with the National Park Service, the 
stakeholders, and users of the park system on the purpose of 
the National Park System, how the National Park Service intends 
to manage the park system, how the Service is improving access 
to the system, and what priority is given to enhancing the 
visitor experience.
    I strongly believe that the NPS must continue to be 
creative in attracting new visitors to the parks, in 
particular, the approximately 54 million disabled Americans who 
might believe that the National Park System may not be for 
them.
    During a recent trip to California, I had the chance and 
the opportunity to see firsthand what the Service has done and 
continues to do to accommodate disabled visitors at Alcatraz 
Island at the Golden Gate National Recreation Area, and the 
Yosemite National Park, the Yosemite Falls. Clearly, the 
Service has the tools to improve access and the visitor 
experience.
    We thank all of the witnesses that will appear before the 
Subcommittee today, and look forward to the testimony.
    I will hold for Ms. Christensen until she arrives, and we 
will let her make her statement then.
    Mr. Brown, do you have an opening statement?
    OK, let me introduce our first panel while we are seating 
Ms. Christensen, and we will allow her statement at that time, 
but we have Ms. Sue Masica. She is the Associate Director of 
Park Planning, Facilities, and Lands, National Park Service, 
Washington, D.C. We have Mr. Gary M. Robb. He is from the 
National Center on Accessibility, Indiana University, 
Bloomington, Indiana; and Mr. JR Harding who is the Vice 
Chairman of the U.S. Architectural and Transportation Barriers 
Compliance Board in Washington, D.C.
    I would now recognize Ms. Christensen for her opening 
statement.
    [The prepared statement of Mr. Pearce follows:]

          Statement of The Honorable Stevan Pearce, Chairman, 
                     Subcommittee on National Parks

    Good morning. Today, the Subcommittee on National Parks will 
receive testimony from our esteemed panel of witnesses on the status of 
disability access in the National Park System. The Subcommittee is most 
interested in how the National Park Service has worked to create a 
welcoming environment for the disabled community to participate in 
recreational opportunities within the System. The Subcommittee is most 
interested in learning what alterations have worked for the Service and 
the disabled community and what has not, and where the Service expects 
to be twenty years from know in terms of disability access.
    I will say to my colleagues at this point that I agree with one of 
the points Ms. Masica included in her statement. Accommodating the 
disabled community is very important, but the Service cannot be 
expected to address every shortcoming in the System--there are limits. 
I believe that the Service t should operate from the workable position 
of what is practical and feasible.
    Since becoming Chairman of the National Parks Subcommittee, I have 
held a series of oversight hearings ranging from the NPS Organic Act, 
the NPS Management Policies and Director's Order 21, NPS business plans 
and most recently on visitation trends in the National Park System 
because I, along with Chairman Pombo, believe it is important for 
Members of this subcommittee to have serious and in-depth discussions 
with the National Park Service, with stakeholders, and users of the 
Park System on the purpose of the National Park System, how the 
National Park Service intends manage the park system, how the Service 
is improving access to the System, and what priority is given to 
enhancing the visitor experience.
    I strongly believe that the NPS must continue be creative in 
attracting new visitors to the parks, in particular the approximately 
54 million disabled Americans who might believe that the National Park 
System may not be for them.
    During a recent trip to California, I had the opportunity to see 
firsthand what the Service has done and continues to do to accommodate 
disabled visitors at Alcatraz Island at the Golden Gate National 
Recreation Area and Yosemite National Park at Yosemite Falls. Clearly, 
the Service has the tools to improve access and the visitor experience.
    We thank all of the witnesses that will appear before the 
subcommittee today, and look forward to your testimony. I now recognize 
Mrs. Christensen for her opening statement.
                                 ______
                                 

STATEMENT OF THE HONORABLE DONNA M. CHRISTENSEN, A DELEGATE IN 
                CONGRESS FROM THE VIRGIN ISLANDS

    Ms. Christensen. Thank you, Mr. Chairman, and welcome to 
the panelists.
    Disability access in the National Park System is an 
important topic, and I am glad the Subcommittee is reviewing 
this matter. It is estimated that nearly one in five Americans 
have a disability, and these disabilities can be life-long, or 
sometimes they are short term. But regardless of their 
duration, as a report to Congress in 2000 noted, accessibility 
is an issue that does or has the potential to affect everyone.
    Although this hearing will focus on the National Park 
Service's disability access, disability access goes far beyond 
the National Park System, and so it is indeed a responsibility 
for all Federal agencies. So while we are looking at the 
programs and services of the National Park, we are by no means 
singling the agency out.
    The various Federal statutes on disability access have been 
summarized by two words--equal treatment. In a 1991 report on 
wilderness accessibility for people with disabilities prepared 
at the direction of Congress found that most people with 
disabilities use and enjoy wilderness areas for the same 
reasons and in the same ways as persons without disabilities. I 
suspect this will also hold true for those who use our national 
park.
    That 1991 report also pointed out that individuals with 
disabilities did not want special access, rather they wanted 
equal access. The 2000 report to Congress on improving access 
to outdoor recreation reiterated the point that it is not 
special access that is being sought, but equal access.
    That report also included a number of recommendations to 
the Federal agencies on how to improve access to outdoor 
recreation on Federal lands, and I hope we will have the 
opportunity to discuss those recommendations with the witnesses 
this morning.
    In St. John, in the national park back about a year and a 
half ago, there was a very good meeting that was held between 
the Park Service, some of the private concessionaires, and the 
disability community, and out of that came some very 
substantive recommendations and ways that we could make it more 
accessible, so I am glad to say that one of the parks in my 
district is already addressing that issue.
    I want to thank you again, Mr. Chairman, for holding this 
oversight hearing, and I appreciate the appearance of our 
witnesses today.
    Mr. Pearce. Thank you very much. Ms. Masica.

  STATEMENT OF SUE MASICA, ASSOCIATE DIRECTOR, PARK PLANNING, 
 FACILITIES, AND LANDS, NATIONAL PARK SERVICE, WASHINGTON, D.C.

    Ms. Masica. For people with disabilities in the National 
Park System, the Park Service, as you have noted, is strongly 
committed to the principle of accessibility in our park units. 
We believe that the essence of this goal is to ensure, to the 
highest degree that is practical and feasible, that the 
nation's citizens with disabilities have the same opportunities 
to visit and experience the wonders of the National Park System 
that are afforded to all other citizens.
    In some instances, the very nature of the environment we 
manage poses some inherent restrictions to full accessibility. 
The Park Service operates under the requirements of both the 
enabling legislation passed in 1916 that established the 
mission of the Park Service to conserve resources unimpaired 
and provide for public enjoyment, along with the requirements 
of the Architectural Barriers Act and Title IV of the 
Rehabilitation Act.
    It is our desire that all citizens, including those with 
disabilities, have the opportunity to work in, visit, and enjoy 
this nation's natural and cultural treasures that are managed 
by the Park Service.
    The primary approach that we have used is to charge each 
park superintendent who is on-the-ground manager with the 
responsibility for ensuring the compliance with the 
requirements of the Architectural Barriers Act and the 
Rehabilitation Act. This involves evaluating facilities and 
programs to determine the level of access and implementing 
actions to make required modifications. Improvement are using a 
variety of fund sources that are appropriated to the Park 
Service, fee-revenue available to the parks, and other monies 
available to the parks, such as concession fees.
    We have also established an extensive program to provide 
technical assistance and continuing education to our managers 
to assist them and the park staff in better understanding the 
legal requirements and the methods and techniques for ensuring 
that alterations are made appropriately.
    Under this approach, every park in the system has made 
progress in identifying and correcting deficiencies. The fee 
program, in particular, has had a significant positive effect 
on improving accessibility in our facilities. In four years 
between 2001 and 2005, over 800 projects were funded with fee 
revenues that included accessibility as a component of the 
project. That represents 25 percent of the funded projects and 
resulted in over $140 million. This project has funded 
improvements in campgrounds, picnic areas, overlooks trails, 
visitors centers, interpretative media, interpretative 
programming, and transportation systems.
    Our goal is to ensure that visitors with disabilities can 
visit the parks and to the greatest extent practical have 
access to the same experiences and services provided to all 
visitors. We have made substantial progress toward this goal 
but more still remains to be done. We have identified several 
challenges that confront us as we try to reach full compliance 
and we are working to address them so that we can continue to 
improve the level of access in our parks.
    First is the size and the age of our infrastructure. Many 
of our buildings built prior to the 1960s where no 
consideration was given to accessibility. So we have the 
challenge of having to alter access barriers in a high 
percentage of older facilities which in many cases do not lend 
themselves to easy modifications.
    We estimate that about 30 percent of our buildings are 
historic. This doesn't exempt them from accessibility 
requirements, but does add an additional layer of review and 
deliberation in order to determine the appropriate way to 
provide access while at the same time preserving and protecting 
the historically significant features of the buildings and also 
the landscapes.
    Third, many of our units consist of natural and undeveloped 
lands which include campgrounds and trails that pose some 
additional difficulties in providing access while also 
preserving and protecting the environment. Official access 
standards for many of these types of facilities do not 
currently exist. The Park Service has been working with our 
fellow land managing agencies and the Access Board in the 
development of official guidelines for these facilities.
    While the guidelines are being developed, we are still 
attempting to make these facilities as accessible as is 
practical. You saw some excellent examples in your recent trip 
to California. Also, we have an example at White Sands, in your 
home State of New Mexico, where volunteers worked with the Park 
Service to construct a new 900-foot wheelchair accessible 
inter-dune boardwalk. The boardwalk guides visitors through a 
vegetated area between sand dunes to an overlook that affords a 
panoramic view of the world's largest gypsum sand dune field. 
The Park Service staff and volunteers also then provide one-on-
one interpretation to visitors along the boardwalk.
    Accessibility also involves not only ensuring that citizens 
with disabilities can access the parks, but that once there 
they can also enjoy the same benefits that are provided to 
other visitors. This means that educational and interpretative 
services, such as films, publications, lectures, wayside 
exhibits can be used effectively by visitors who are blind or 
visually limited, and by those who are deaf or have hearing 
loss.
    The Park Service is producing a variety of interpretative 
tools to make programs and media more accessibility to visitors 
with disabilities such as closed-captioning for all the AV 
products shown in park visitor centers.
    In the past, superintendents were encouraged to work on 
making each park accessible. However, there were no 
comprehensive system-wide standards. To correct this, we are 
incorporating access into our asset management program to 
assure that accessibility is addressed day to day and not as a 
special separate initiative, and we are doing a comprehensive 
assessment service-wide on that.
    We are also studying and evaluating the impact of emerging 
technologies. Over the past several months a number of parks 
have received requests from individuals with disabilities 
regarding Segways. The Park Service has been studying this 
situation, have been reviewing policies and practices of other 
Federal agencies. At this time we have not written a specific 
service-wide position when Segways are used by individuals with 
disabilities as mobility aids, but we are encouraging managers 
to look at the situation and to temporarily allow and encourage 
them to establish park-specific interim policies and practices 
regarding the use of Segways. Then after further study and 
evaluation, we will be looking at whether we should do a 
service-wide policy.
    Mr. Chairman, that summarizes my statement. Thank you.
    [The prepared statement of Ms. Masica follows:]

Statement of Sue Masica, Associate Director, Park Planning, Facilities, 
   and Lands, National Park Service, U.S. Department of the Interior

    Mr. Chairman and members of the committee, thank you for the 
opportunity to provide an update on the status of accessibility for 
people with disabilities in the National Park System. We are pleased to 
discuss the status of the National Park Service (NPS) Accessibility 
Management Program, the goals and objectives of our program, our 
accomplishments over the past several years, and the initiatives 
underway for future and continuing improvements.
    The NPS is strongly committed to the principle of accessibility in 
our National Park units. We believe that the essence of this goal is to 
ensure, to the highest degree that is practical and feasible, that the 
nation's 54 million citizens with disabilities have the same 
opportunities to visit and experience the wonders of the National Park 
System that are afforded to all other citizens. The inclusion of the 
terms ``practical and feasible'' is important, because in some 
instances, the very nature of the environment that we manage poses some 
inherent restrictions to full accessibility.
    In 1916, Congress created the NPS to ``promote and regulate the use 
of the Federal areas known as national parks, monuments, and 
reservations,'' and to ``conserve'' the resources and values in these 
areas ``unimpaired'' for the enjoyment of future generations. At the 
same time, the NPS is required by the Architectural Barriers Act of 
1968 and Title V of the Rehabilitation Act of 1973, to ensure that our 
facilities and programs are accessible to and usable by citizens with 
disabilities. To address these sometimes competing legislative 
mandates, the NPS has approached the issue of accessibility in parks in 
a comprehensive and organized way, rather than on a project-by-project 
basis, through the creation of the Accessibility Management Program. 
The primary goal of the program is to develop and coordinate a 
systemwide, comprehensive approach to achieving the highest level of 
accessibility that is practical, while ensuring consistency with the 
other legal mandates of conservation and protection of the resources we 
manage.
    In 1980, the NPS began and has continued to work with accessibility 
coordinators in the parks and at each regional and program office, to 
assess the level of accessibility at each park; to identify the 
barriers to accessibility; to develop policies and guidelines regarding 
appropriate methods and techniques for improving access; to provide 
technical assistance and in-service training on effective approaches 
and program implementation; and to take action on an on-going basis at 
the individual park level to eliminate identified barriers.
    We have made these efforts, not only because it is required by law, 
but also because it is our desire that all citizens, including those 
with disabilities, have the opportunity to work in, visit and enjoy the 
wonders of this nation's natural and cultural treasures. Providing 
optimal levels of accessibility and opportunities in the programs and 
facilities of the National Park System have been reinforced over the 
past few years by the issuance of departmental regulations, additions 
to the NPS Management Policies, and the development of Director's 
Orders.
    The primary approach that we have used over the past several years 
is to charge each superintendent with the responsibility of ensuring 
that each park is in compliance with the appropriate legal requirements 
and with NPS policy regarding accessibility. This has involved 
evaluating their facilities and programs to determine the level of 
access and to implement actions on an annual basis by utilizing 
appropriated funds, fee revenues and other funds available to the parks 
to make required modifications. This strategy involves ensuring that as 
new facilities and programs are developed, they are in compliance; and 
as existing facilities and programs are altered or renovated, that they 
are made accessible according to the appropriate standards or 
guidelines. We have also established an extensive program to provide 
technical assistance and continuing education in order to assist the 
park staff in better understanding the legal requirements, and the 
methods and techniques for ensuring that alterations are made 
appropriately. Under this approach, every park in the National Park 
System has made progress in identifying and correcting deficiencies.
    One program that had a positive effect on improving accessibility 
in our facilities is the recreation fee program, which was instituted 
as the Recreational Fee Demonstration Program in 1997 and replaced by 
the Federal Lands Recreation Enhancement Act in 2004. The recreation 
fee program authorizes 100 percent of the revenue generated by charging 
fees to be returned to the NPS, with 80 percent remaining at the site 
where it is collected and 20 percent to be used servicewide at the 
Director's discretion. In FY 2001, the NPS Director allocated $5 
million of the 20 percent fee revenues to address accessibility needs 
in the low revenue and non-collecting parks. The $5 million in fee 
revenues funded over 120 projects in all regions and in over 100 
different parks in FY 2002. We are proposing that a similar program be 
set up for FY 2007.
    In addition to the $5 million of the 20 percent fee revenues, the 
NPS has worked to ensure that accessibility improvements are included 
in any project that involves the alteration to an existing facility or 
building. From FY 2001 through FY 2005, over 800 projects were funded 
through the recreation fee program (both 80 percent and 20 percent) 
that included accessibility as a part of the project. This constitutes 
approximately 25 percent of the funded projects each year and totals 
over $140 million. These projects have funded improvements in 
campgrounds, picnic areas, overlooks, trails, visitor centers, 
interpretive media, interpretive programs, and transportation systems.
    Some examples of park projects funded with recreation fees include 
Cowpens National Battlefield in South Carolina, where the visitor 
center was modified to meet access standards for employees and 
visitors, including replacing the 21-year-old information desk, 
reconfiguring parking spaces, installing an elevator and producing 
Braille and audio tapes to enable visually impaired visitors to 
experience the exhibits. At Joshua Tree National Park in California, 
the Hidden Valley day-use area was rehabilitated by paving 900 linear 
feet of access road, developing four new accessible picnic sites, and 
constructing 1,420 linear feet of hard surfaced accessible walkways.
    Our goal is to ensure that visitors with disabilities can visit the 
parks, and to the greatest extent practical, have access to the same 
experiences and services provided to all visitors. We have made 
substantial progress towards this goal, but more still remains to be 
done. We have identified several barriers to reaching full compliance 
and we are working to address them so that we can continue to improve 
the level of access in our parks.
    First, a large percentage of the infrastructure of the NPS, 
including the administrative buildings and visitor contact stations, 
was constructed in the early 1960's. Our asset database reveals that we 
have 18,700 buildings currently in active use in the National Park 
System, of which many were constructed before 1968 when the 
Architectural Barriers Act (which requires access in Federal 
construction) was enacted. This means that a high percentage of these 
buildings were constructed without consideration for accessibility. 
Consequently, we have the challenge of having to alter access barriers 
in a high percentage of older facilities, which in many cases do not 
lend themselves to easy modifications. We are currently involved in a 
major program to conduct Comprehensive Condition Assessments of the NPS 
infrastructure and to determine the corrective actions needed to bring 
these structures into compliance with the current requirements.
    Second, 30 percent of the buildings and structures of the NPS are 
on the National Register of Historic Places. This does not exempt them 
from accessibility requirements, but does add an additional layer of 
review and deliberation in order to determine ways to provide access, 
while at the same time, preserving and protecting the historically 
significant features and landscapes. The process for finding this 
balance is set forth in several Federal regulations dating back to 
1984. We are making some progress, such as the installation of an 
interior elevator to access the great meeting hall at Boston National 
Historical Park's Faneuil Hall or the elimination of steps and the 
installation of accessible walkways to historic buildings at Fort 
Vancouver National Historical Park in Washington State.
    Third, many of the units of the National Park System consist of 
natural and undeveloped lands, including campgrounds and trails that 
pose some additional difficulties in providing access while also 
preserving and protecting the environment. It is important to note that 
official access standards for many of these types of facilities do not 
currently exist. The NPS has been working closely with other land-
managing agencies and the U.S. Access Board in the development of 
official guidelines for these facilities. While these guidelines are 
being developed, we are still attempting to make these facilities as 
accessible as is practical. For example, at White Sands National 
Monument in New Mexico, Americorps volunteers worked with the NPS to 
construct a new 900-foot wheelchair-accessible interdune boardwalk. 
This boardwalk guides visitors through a vegetated area between sand 
dunes to an overlook that affords a panoramic view of the world's 
largest gypsum sand dune field. NPS staff and volunteers provide one-
on-one interpretation to visitors on the boardwalk.
    Fourth, accessibility involves not only ensuring that citizens with 
disabilities can access our parks, but also that once there, they can 
enjoy the same benefits that are provided to other visitors. This means 
that the educational and interpretive services provided, such as films, 
publications, lectures and wayside exhibits, can be used effectively by 
visitors who are blind or visually limited, and by those who are deaf 
or have hearing loss. This involves providing Braille and large print 
publications, audio-descriptions of our audio-visual programs, and 
tactile exhibits for those with visual limitations and providing sign 
language interpretation and assistive listening systems for those with 
hearing limitations. Exact guidelines and standards on how to 
effectively meet the needs of the populations who experience a wide-
range of visual and hearing loss are still in the process of being 
developed. Through the Harpers Ferry Center, the NPS is producing a 
variety of interpretive tools to make programs and media more 
accessible to visitors with disabilities such as closed captioning for 
audio-visual products shown in park visitor centers.
    One recent project, the new exhibit at Kings Mountain National 
Military Park in South Carolina, was designed with the intent of 
providing access features for all populations in the most integrated 
way possible. Special attention was given to incorporate features for 
mobility, hearing impaired or visually impaired visitors in a seamless 
and unobtrusive manner. Audio elements are included at each exhibit to 
provide information for visitors who cannot read the text. These audio 
elements also offer audio-descriptions of the visual exhibits. In 
addition, all video components have unique flat screen monitors that 
provide captions for those who cannot hear the information. Tactile 
elements including touchable reproductions of the Revolutionary War Era 
``Ferguson Rifles'' were produced to reveal the inner workings of the 
firing mechanism and to allow a hands-on experience for all visitors 
including those with limited vision. The integrated services do not 
require visitors to use or request special services or equipment. This 
project was a first of its kind endeavor, and we are planning to 
conduct evaluations of its effectiveness in delivering information to a 
broad and diverse population.
    The NPS is working hard to identify and solve any additional 
barriers we face as we work towards the highest level of accessibility 
possible for all visitors to our parks. In the past, all 
superintendents were encouraged to work on making each park more 
accessible; however, there were no comprehensive, systemwide standards 
that had to be met. To correct this, we are incorporating access 
requirements into the comprehensive NPS Asset Management Program to 
ensure accessibility is addressed on a day-to-day basis, and not as a 
special or separate initiative.
    By taking significant steps to incorporate the evaluation of 
accessibility needs into this comprehensive program, the NPS has a much 
more accurate picture of the current situation, including the costs of 
the repair and rehabilitation needs of the NPS, and will also serve to 
elevate access needs into the larger picture of asset management. In 
order to establish a baseline on the level of access in our parks, the 
NPS will be completing accessibility evaluations at a range of parks 
across different regions over the next 12 months. The results of this 
project combined with the evaluations already completed will give us 
information to better assess the degree of accessibility deficiencies 
that exist and better project the cost associated with correcting those 
deficiencies.
    In order to create knowledge and awareness of the legal 
requirements for accessibility, including the regulations, guidelines 
and standards that must be followed, the NPS is implementing a program 
of technical assistance and continuing education. To this end, the NPS, 
through a cooperative partnership with Indiana University, has 
established the National Center on Accessibility (NCA). Through the 
NCA, we have been able to provide continuing education opportunities 
related to accessibility to over 1,850 NPS personnel from 240 different 
parks. In addition, the NCA has offered extensive technical assistance 
programs and services to the parks, and have sponsored research and 
demonstration programs to find more effective ways of achieving access 
in outdoor recreation environments. The NCA also maintains an active 
website that receives over 400,000 hits per month. In addition to 
serving the NPS, these services are also made available to other park 
and recreation agencies at the local, State and Federal levels. We have 
recently extended this cooperative agreement for an additional 5 years 
through FY 2010, and through this cooperative partnership we will 
continue to provide training and technical assistance to the parks.
    We are also studying and evaluating the impact of emerging 
technologies on the expansion of opportunities for people with 
disabilities in the NPS. For instance, over the past several months, a 
number of parks have received requests from individuals with 
disabilities to use the Segway Human Transporter, a two-wheeled, 
gyroscopically stabilized, battery powered personal transportation 
system, in the parks as their primary means of mobility. The NPS has 
been studying this situation and has been reviewing policies and 
practices of other Federal agencies regarding this issue. At the 
present time, we have not written a specific servicewide position on 
allowing Segways when used by individuals with disabilities as their 
mobility aide. Consistent with the Rehabilitation Act of 1973, there 
are places where the use of Segways would be appropriate. Because of 
safety and resource management issues, it might not be appropriate in 
all parks and we are evaluating this. In order to better evaluate the 
long-term effect of this issue and to better assess the impacts on the 
diverse settings represented throughout the National Park System, the 
NPS has decided to temporarily allow and encourage each superintendent 
to establish park-specific interim policies and practices regarding the 
use of Segways by people with disabilities. After further study and 
evaluation of this issue at a number of parks, the NPS will make a 
decision with regard to the development of a servicewide policy.
    Finally, the NPS has taken steps to better ensure that projects are 
in compliance with the appropriate standards when they are designed and 
constructed. Through the Denver Service Center (DSC), trained 
professionals work with parks and regional staff to review projects 
during the planning, design and construction stages to provide guidance 
and oversight on accessibility requirements. During FY 2004, the DSC 
worked on 153 projects that covered a total of over $410 million in 
design and construction costs.
    In conclusion, the NPS leadership is dedicated to providing the 
highest level of access that is practical, in conformance with the 
appropriate legal mandates and servicewide policies. We are continuing 
to encourage all of our park superintendents to identify barriers that 
limit full accessibility to our visitors, and to take actions to 
eliminate those barriers. Over the past several years, with the help of 
our staff, consultants, and partners, we have made a great deal of 
progress toward enhancing the quality of our accessibility program.
    This concludes my testimony. I would be happy to answer any 
questions you or other committee members might have.
                                 ______
                                 
    Mr. Pearce. Thank you very much.
    Mr. Robb.

 STATEMENT OF GARY M. ROBB, NATIONAL CENTER FOR ACCESSIBILITY, 
            INDIANA UNIVERSITY, BLOOMINGTON, INDIANA

    Mr. Robb. Mr. Chairman, Members of the Subcommittee, thank 
you for the opportunity to discuss accessibility for people 
with disabilities in the National Park Service.
    The National Center on Accessibility is a center of Indiana 
University's Department of Recreation and Park Administration 
in the School of Health, Physical Education, and Recreation in 
Bloomington. The center was created in 1992 under a cooperative 
agreement with the Accessibility Management Program of the 
National Park Service.
    National Center on Accessibility is committed to the full 
participation of people with disabilities in parks, recreation, 
and tourism. Through our research, technical assistance, and 
education we focus in universal design and practicable 
accessibility solutions that create inclusive recreation 
opportunities for people of all abilities.
    Since 1992, we have offered 121 training programs, often 
near national parks in all parts of the country. We trained 
over 1,500 National Park Service employees and concession 
operators, and we have offered distance learning to National 
Park Service staff via satellite, the internet, and through 
development of CDs.
    We provide technical assistance to the Park Service through 
telephone conversations, technical reports, state-of-the-art 
and up-to-date website, e-mails, newsletters, videos, and 
onsite assessments and consultation. Our technical assistance 
focuses on assisting the National Park Service personnel meet 
the requirements of the Architectural Barriers Act and Section 
504 of the 1973 Rehabilitation Act.
    Our center conducts and facilitates research on issues that 
are often generated from staff at the National Park Service 
units. Our research has helped shape the development of 
national policy and accessibility standards. Examples of topics 
that we have studied include swimming pool accessibility, beach 
devices and surfaces; accessible trails surfaces, campground 
and picnic area accessibility and policies, visitor preferences 
and expectations when they visit national parks, National Park 
Service perceptions of accessibility in their park units, and I 
will leave a copy of many of these reports for the Committee to 
review.
    In addition to our training and technical assistance and 
research activities, we have also provided more in-depth onsite 
accessibility assistance to over 45 National Park Service 
units. Example of the parks that we have assisted on various 
accessibility issues include the FDR Home, the Trail of Tears 
Museum, Gulf Islands National Seashore; Yosemite National Park, 
Bandelier National Monument, Petroglyph National Monument, 
Chaco Culture National Historic Park, Cape Hatteras National 
Seashore, Natchez National Historic Park, and the Harpers Ferry 
Center.
    We constantly look for the feedback on the value and impact 
of our services and as just one example, in our latest 2005 
survey over 80 percent of our trails training program 
participants said that they had actually been able to use 
course information in their park within six months of the 
training program.
    We have made significant strides or significant strides 
have been made in recent years, particularly in the area of 
physical accessibility. However, there is still much more to be 
done to ensure park visitors with disabilities have the same 
benefit of the services available to visitors without 
disabilities. With appropriate resources, we believe that we 
could assist the Park Service in the future to accelerate 
accessibility improvements in the following ways:
    The development of policies and guidelines for new or 
renovated exhibits, and other media such as captioning, audio 
description, descriptive listening systems, maps and models. 
These should all be developed to ensure that any new or 
renovated exhibit is accessible.
    This should be a priority and NCA could assist the National 
Park Service by providing training for exhibit designers, 
consultation with Harpers Ferry staff, and training for 
construction personnel to increase the assurance that 
accessibility is not only designed in the projects, but it is 
also not overlooked in the construction process.
    It is clear to us that many of the National Park Service 
managers have an understanding of the standards under the 
Architectural Barriers Act, but lack the same understanding of 
the requirements for program access as required by Section 504 
of the Rehabilitation Act.
    In most instances the National Park Service depends on 
exhibit design contractors to ensure exhibit accessibility, and 
they also lack the knowledge and understanding of Section 504.
    As the National Park Service continues to conduct 
comprehensive condition assessments on its assets, it is 
imperative that accessibility deficiencies be identified. NCA 
could assist the National Park Service by mobilizing assessment 
teams as well as to continue to provide training for National 
Park Service managers so that they are equipped to complete the 
assessments.
    In closing, it should be noted that the status of 
accessibility in the National Park Service is not unlike other 
Federal, state, or local recreation and land management 
agencies. Across the board at all levels park and recreation 
professionals are challenged with creating access and 
retrofitting facilities and unique recreation environments with 
limited resources, budgets, and staff expertise.
    Thousands of visitors with disabilities to national parks 
have directly benefited from over the past 15 years from the 
cooperative agreement between the National Park Service and 
Indiana University. There is still more to do. Through 
continued support and partnerships such as this, the National 
Park Service has one of the largest stewards of public lands in 
the world can accelerate it accessibility initiatives, and 
continue to serve as an accessibility management model to other 
recreational land managing agencies.
    Thank you.
    [The prepared statement of Mr. Robb follows:]

            Statement of Gary M. Robb, Executive Director, 
         Indiana University's National Center on Accessibility

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss accessibility for 
people with disabilities in the National Park Service.
The National Center on Accessibility-National Park Service Partnership
    The National Center on Accessibility (NCA) is a Center of Indiana 
University's Department of Recreation and Park Administration in the 
School of Health, Physical Education and Recreation. The Center was 
created in 1992 under a Cooperative Agreement with the Accessibility 
Management Program of the National Park Service (NPS). The funding 
provided by NPS under the Cooperative Agreement, currently $272,000 per 
year, provides just under 50% of the operating budget for NCA.
    The NCA is committed to the full participation of people with 
disabilities in parks, recreation, and tourism. Through its 
comprehensive services of research, technical assistance, and 
education, we focus on universal design and practical accessibility 
solutions that create inclusive recreation opportunities for people of 
all abilities.

TRAINING
    Since 1992, NCA has:
    <bullet>  Offered 121 training courses, often in or near national 
parks, in all parts of the country
    <bullet>  Been attended by over 1500 NPS employees and concession 
operators.
    <bullet>  Offered distance learning via satellite, the internet and 
CD's.
    The training programs for NPS personnel have focused on topics such 
as retrofitting of park facilities, designing media for accessibility/
exhibits, comprehensive accessibility planning and universal design. We 
also provide both classroom and hands-on-training on subjects such as 
trails, campgrounds, and picnic and visitor services.

TECHNICAL ASSISTANCE
    On-going technical assistance is provided to the NPS through 
telephone conversations, technical reports, a state of the art and up 
to date website, emails, newsletters, videos, and onsite assessments 
and consultation. Our technical assistance focuses on assisting NPS 
personnel in order to meet the requirements of the Architectural 
Barriers Act and Section 504 of the 1973 Rehabilitation Act. NCA also 
provides outreach technical assistance and training programs to state 
and municipal recreation land management agencies on compliance with 
the Americans with Disabilities Act.

RESEARCH
    NCA conducts and facilitates research on issues critical to 
accessibility in the NPS. In conjunction with NCA research partners at 
other Universities (such as Minnesota, Tennessee and Georgia); our 
research has helped shape the development of national policy and 
accessibility standards. Included are:
    <bullet>  A swimming pool accessibility study for the U.S. Access 
Board resulting in the development of accessibility standards (ABAAS)
    <bullet>  Performance of assistive mobility devices and temporary 
surfaces for beach access;
    <bullet>  Effectiveness of surface treatments to create accessible 
trails.
    <bullet>  Functional aspects of accessible picnic elements;
    <bullet>  Activity of people with disabilities in the National 
Survey of Recreation and the Environment;
    <bullet>  Assessment of visitor expectations and perceptions in 
outdoor developed areas; and
    <bullet>  Campground accessibility policies and practices.
    Our research is based on questions that are received directly from 
the parks and where study is required to assist the parks in making 
affordable and practical decisions on creating better access. As an 
example, our study on Visitor Expectations and Perceptions of Program 
and Physical Accessibility in the National Park Service was conducted 
on site at Great Smoky Mountains National Park, Blue Ridge Parkway, 
Shenandoah National Park, Mammoth Cave National Park, and Hot Springs 
National Park. Similarly, our current national research on accessible 
trail surface alternatives is a result of the high volume of questions 
that we received from National Park staff on this issue.

Impact
    The National Center on Accessibility constantly seeks feedback on 
the value and impact of its services. In 1995, our first impact study 
revealed that 100% of the survey respondents were either satisfied or 
very satisfied with our services. More importantly, 97% reported that 
the services that they received from NCA had had at least a moderate 
impact on their ability to serve people with disabilities. This level 
of impact was consistent in responses to questions about NCA research, 
training, and technical assistance. In 2002, the Indiana University 
Center for Survey Research conducted a telephone survey of NCA training 
program participants for the preceding five year period. Once again the 
survey results were encouraging with over 85% of the respondents 
indicating that the training program that they had attended had 
improved their attitudes towards accessibility and towards people with 
disabilities; and over 75% indicated that as a result, they had been 
able to initiate more physical access to their facilities. However, 
just over 50% indicated that they had made any improvements or progress 
in program accessibility. The latter is significant, in that an earlier 
study conducted by NCA in 1999 had indicated a general lack of 
understanding of program accessibility among NPS respondents. In 2005, 
Quality Values, Inc. conducted a six month online survey to determine 
how many training participants in a trails accessibility course had 
been able to actually implement information learned in the course. Over 
80% of the survey respondents had been able to use course information 
at their park within six months of the training.

ONSITE VISITATIONS AND ASSISTANCE
    In addition to our training, technical assistance, and research 
activities, NCA has provided more in-depth onsite accessibility 
assistance to over 45 National Park Service units. Examples of this 
assistance include:
    <bullet>  Home of FDR--NCA participated as the accessibility expert 
in a Value Analysis to determine the best method of making the second 
floor of the Home of FDR accessible to visitors with disabilities.
    <bullet>  Trail of Tears Museum, Cherokee Cultural Heritage Center, 
Tahlequah, OK
    <bullet>  We provided advice on Universal Design and accessibility 
throughout the planning, design, fabrication and completion of the 
exhibition. This project received a national media award by the 
National Association of Interpretation in 2001.
    <bullet>  Gulf Islands National Seashore was requested to advise 
the Gulf Islands NS Wayside Project team on the outdoor exhibits and 
waysides as a part of the hurricane recovery process.
    <bullet>  Yosemite NP--We participated as the accessibility 
consultant on the Yosemite Valley Visitors Center Exhibit Hall planning 
process, and provided accessibility advice to the exhibit contractor. 
Yosemite is currently in the process of contracting for the 
rehabilitation of the Exhibit Hall that will include accessibility 
features.
    <bullet>  Bandelier NM--NCA provided accessibility advice on the 
Park's museum rehabilitation project. Bandelier has since rehabilitated 
the museum and has included accessibility in both physical and 
programmatic areas.
    <bullet>  Petroglyph National Monument--We provided accessibility 
advice to the park staff on the long range planning for both physical 
and programmatic aspects of the park's future plans. The park has since 
made exhibit modifications that include accessibility and are currently 
developing an audio described video.
    <bullet>  Chaco Culture NHP--Site Evaluation providing 
recommendations & guidance for accessibility in a historic and 
culturally sensitive site.
    <bullet>  Cape Hatteras National Seashore has, as a result of a 
complaint, and consultation by NCA, developed more disability friendly 
policies for visitors to the light house. NCA training of Seashore 
staff has resulted in new policies that have translated into improved 
visitor experiences according to management.
    <bullet>  Natchez National Historic Park has made major 
accessibility improvements to the grounds, mansion, and exhibits and as 
a result has received two accessibility awards for the changes made.
    <bullet>  Harpers Ferry Center--NCA has been instrumental in the 
development of the large print format brochure for the C & O Canal NHP.
What are the major current needs on accessibility in the NPS?
    Significant strides have been made in recent years, particularly in 
the area of physical accessibility. However, there is still much more 
to be done to ensure park visitors with disabilities have the same 
benefit of the services available to visitors without disabilities. 
With the appropriate resources, we believe that we could assist the 
Park Service in the future to accelerate accessibility improvements in 
the following ways:
    <bullet>  As we identified in both our 1999 and 2002 studies cited 
earlier, a major need is for NPS Managers to insure that accessibility 
is built into all new construction plans as well as in all retrofitting 
and rehabilitation projects. All designs and projects require oversight 
and supervision by someone with knowledge of accessibility design and 
alteration standards. We believe that training for design and 
construction personnel may greatly increase the assurance that 
accessibility will be included in all such projects.
    <bullet>  The development of policies and guidelines for new or 
renovated exhibits and other media such as captioning, audio 
description, assistive listening systems, maps and models should be 
developed to insure that any new or renovated exhibit is accessible. 
This should be a priority, and NCA can assist the NPS by providing 
training for exhibit designers and consultation with NPS Harpers Ferry 
staff. It is clear that NPS mangers have an understanding of the 
standards under the Architectural Barriers Act but lack the same 
understanding of the requirements for program access of the 1973 
Rehabilitation Act, Section 504. In most instances, the NPS depends on 
exhibit design contractors to insure exhibit accessibility and they 
also lack the knowledge and understanding of Section 504.
    <bullet>  As the NPS continues to conduct comprehensive condition 
assessments on its assets, it is imperative that accessibility 
deficiencies be identified in those assessments. NCA could assist in 
this regard by mobilizing assessment teams, as well as continue to 
provide training for NPS managers so that they are equipped to complete 
the assessments.
    While physical accessibility remains a major need throughout the 
National Park system, programmatic accessibility should be treated with 
equal concern. It appears that many NPS units do not fully understand 
programmatic accessibility. Program accessibility is not as tangible as 
physical accessibility but is just as important. NPS staff has major 
difficulties in understanding and incorporating programmatic 
accessibility into their planning process. We are encouraged that more 
and more parks are contacting us for assistance in this area, but the 
lack of understanding and overall concern for making exhibits, 
interpretive programs and audio visual presentations remains.
    On a personal note, I had the opportunity to spend several days 
during the summer of 2005 in three western states National Parks. I had 
the opportunity to speak with park staff in each park and to review 
accessibility features while there. In general, I found that there was 
an absence of accessible exhibits and audio visual programs in each 
park. Accessible wayside features were rare. In talking with NPS staff, 
they did not seem to have extensive knowledge of program accessibility, 
did not know if their visitor centers videos were captioned or audio 
described and couldn't find or didn't know how to use them when they 
did. There was a lack of knowledge and concern among NPS staff that I 
spoke with in each park, regarding the priority for accessibility. I 
was also aware that at one park, little progress had been made in 
addressing a 1999 accessibility audit report from the NPS Accessibility 
Management Program staff, which was conducted as a result of a formal 
complaint.

Conclusion
    In closing, it should be noted that the status of accessibility in 
the National Park Service is not unlike other federal, state or local 
recreation land management agencies. Across the board, at all levels, 
park and recreation professionals are challenged with creating access 
and retrofitting facilities and unique recreation environments with 
limited resources, budgets, and staff expertise. Thousands of visitors 
with disabilities to national, state and even neighborhood parks have 
directly benefited over the last 14 years from the cooperative 
agreement between the NPS and Indiana University. But there is still 
more to do. Through continued support and partnerships such as this, 
the NPS, as one the largest stewards of public lands in the world, can 
persevere and accelerate its accessibility initiatives and continue to 
serve as an accessibility management model to other recreation land 
management entities.
                                 ______
                                 
    Mr. Pearce. Mr. Harding.

STATEMENT OF JR HARDING, VICE CHAIRMAN, U.S. ARCHITECTURAL AND 
   TRANSPORTATION BARRIERS COMPLIANCE BOARD, WASHINGTON, D.C.

    Mr. Harding. Thank you. Chairman Pearce, Members of the 
Subcommittee, thank you.
    I am pleased to present testimony today on behalf of the 
Access Board, and ask that my statement be included in the 
written record.
    I am Dr. JR Harding from Tallahassee, Florida, public 
member, and the current Vice Chairman of the U.S. Access Board. 
With me today is Jim Raggio, our Board's General Counsel and 
Peggy Greenwell, the principal staff member working on our 
outdoor developed area.
    From our earlier efforts to enforce the Architectural 
Barrier Act of 1968, to our ongoing efforts to enforce and 
write accessibility guidelines under the Americans With 
Disabilities Act, the Access Board's objective has always been 
the same: to improve access for persons with disabilities 
throughout the nation.
    The Access Board and the Park Service have a long history 
of working together to improve access. The Department of 
Interior is a member of the Access Board and has provided 
invaluable input in our efforts to make outdoor developed areas 
more accessible to persons with disabilities.
    Staff from the Access Board and the Park Service are 
continuously collaborating on ways to make the parks more 
accessible to persons with disabilities. Access Board members 
have visited several of the national parks to gain firsthand 
knowledge about the distinctive issues in our National Park 
System. Of course, this collaborative behavior will continue.
    Let me now address the Access Board's current rulemaking 
for the outdoor developed areas. When we use the term ``outdoor 
developed areas,'' we are referring to facilities such as 
trails, camping, and picnic areas. The Access Board 
acknowledges that these areas are often very unique and 
ultimately the accessibility guidelines must strike a balance 
between access to persons with disabilities while recognizing 
that some outdoor areas possess unique challenges to 
accessibility.
    As the Board has worked its way through the many issues 
surrounding access to the outdoor developed areas, we have 
sought to promote thoughtful deliberations among all affected 
parties. In July of 1993, the Board convened a recreational 
access advisory committee. The following year the report became 
the basis of the advanced notice of proposed rulemaking. The 
comments we received from the advanced notice revealed that 
there was a lack of consensus on several issues including how 
to make a trail accessible.
    Consequently, the Board formed a regulatory negotiation 
committee to resolve these issues. The regulatory negotiation 
committee met for two years and arrived at a consensus of 
accessibility requirements for the outdoor areas, including 
trails, camping, and picnic areas.
    The Board's commitment was that it would publish the report 
as proposed if the committee reached a consensus, and we intend 
to honor that commitment.
    The Access Board's original rulemaking plan called for 
issuing a proposed rule under both the Americans With 
Disabilities Act, and the Architectural Barrier Act. The issues 
for this rulemaking are complex and no current comprehensive 
accessibility requirements currently exist for these areas.
    Therefore, the Board has decided to proceed methodically 
and to developed proposed rule based solely on a rulemaking 
authority under the Architectural Barrier Act. The proposed 
rule will address outdoor developed areas that are designed, 
built, altered with Federal funds or leased by Federal 
agencies.
    The Board made this decision to limit its rulemaking 
facility to areas covered by the Architectural Barrier Act in 
order to gain a better understanding of the rule's impact on 
parks and recreation facilities prior to making these 
provisions applicable to the developed areas covered by the 
Americans With Disabilities Act.
    Park Service and other Federal land management agencies are 
already following technical provisions from earlier reports. To 
give you two quick examples of how these guidelines impact the 
outdoor developed areas:
    First, when a new trail is being constructed, it would have 
to comply with certain technical specifications such as width 
and slope. Although technical provisions for accessibility 
trails apply, there could be conditions where it is not 
possible or it would not be feasible during terrain issues or 
common construction practices.
    Second, as found in other guidelines, there will only be a 
percentage of outdoor elements, like picnic tables and cooking 
surfaces, that will be required to be accessible.
    We believe that the rulemaking on outdoor developed areas 
will better assist in opening up recreational opportunities for 
persons with disabilities. The Access Board plans to submit a 
proposed rule along with the regulatory assessment to the 
Office of Management and Budget this June.
    Thank you for the opportunity to testify, and I look 
forward to any questions, sir.
    [The prepared statement of Mr. Harding follows:]

       Statement of JR Harding, Vice Chairman, U.S. Access Board

    Thank you Mr. Chairman. Good morning. I am pleased to present 
testimony today on behalf of the Access Board and ask that my written 
statement be made a part of the record. I am JR Harding a public member 
from Tallahassee, FL and the Vice Chair of the Access Board. 
Accompanying me today is Jim Raggio, the Board's General Counsel and 
Peggy Greenwell, the principal staff person working on our outdoor 
developed areas rulemaking.
    From our early efforts to enforce the Architectural Barriers Act of 
1968 to our on-going efforts to write accessibility guidelines under 
the Americans with Disabilities Act, the Access Board's objective has 
always been the same: to improve access for persons with disabilities 
throughout our nation.
    The Access Board and the Park Service have a long history of 
working together to improve access. The Department of Interior is a 
member of the Board and has provided invaluable input to our efforts to 
make outdoor developed areas more accessible to persons with 
disabilities. Staff from the Board and the Park Service are continually 
collaborating on ways to make parks more accessible to persons with 
disabilities. Board members have visited several national parks to gain 
first hand knowledge about the unique issues in national parks and this 
practice will undoubtedly continue.
    Now let me turn to the Board's rulemaking for outdoor developed 
areas. When we use the term ``outdoor developed areas'' we are 
referring to facilities such as trails and camping and picnic areas. 
The Board acknowledges that these areas are often very unique and that 
ultimately our accessibility guidelines must strike a balance between 
the need to provide access to persons with disabilities while 
recognizing that some outdoor areas pose unique challenges to 
accessibility.
    Over the course of time as the Board has worked its way through the 
many issues surrounding access to outdoor developed areas we have 
sought to promote thoughtful deliberation among all affected parties. 
The Board convened a Recreation Access Advisory Committee in July 1993 
and the following year their report became the basis of an Advance 
Notice of Proposed Rulemaking. The comments we received from the 
Advance Notice revealed that there was a lack of consensus on several 
issues including how to make trails accessible.
    This led the Board to form a regulatory negotiation committee to 
resolve the issues. The regulatory negotiation committee met for two 
years and arrived at a consensus on accessibility requirements for a 
variety of outdoor developed areas including trails and camping and 
picnic areas. The Board's commitment was that it would publish the 
report as a proposed rule if the committee reached a consensus and we 
intend to honor that commitment.
    The Board's original rulemaking plan called for issuing a proposed 
rule under both the Americans with Disabilities Act and the 
Architectural Barriers Act. The issues for this rulemaking are complex 
and no comprehensive accessibility requirements for these areas exist, 
so we have decided to proceed cautiously. We are developing a proposed 
rule based solely on our rulemaking authority under the Architectural 
Barriers Act. The proposed rule will address outdoor developed areas 
that are designed, built, or altered with Federal funds or leased by 
Federal agencies.
    The Board made its decision to limit this rulemaking to facilities 
covered by the Architectural Barriers Act in order to gain a better 
understanding of the rule's impact on parks and recreation facilities 
prior to making these provisions applicable to outdoor developed areas 
covered by the Americans with Disabilities Act. The Park Service and 
other Federal land management agencies are already following some of 
the technical provisions in the report.
    Let me give you just two examples of how these new guidelines may 
impact outdoor developed areas. First, when a new trail is being 
constructed, it would have to comply with certain technical 
specifications such as its width and slope. Although the technical 
provisions for accessible trails apply, there may be conditions where 
applying these provisions may not be possible such as when compliance 
would not be feasible due to terrain or the prevailing construction 
practices. Likewise, only a certain percentage of elements--like picnic 
tables or cooking surfaces--are required to be accessible.
    We believe that the rulemaking on outdoor developed areas will 
assist in opening up recreational opportunities for people with 
disabilities. The Board plans to submit the proposed rule along with a 
regulatory assessment to the Office of Management and Budget in June. 
Thank you for the opportunity to testify and I would be happy to answer 
any questions you may have.
    NOTE: Attachments to Mr. Harding's statement have been retained in 
the Committee's official files.
                                 ______
                                 
    Mr. Pearce. Thank you, sir. We will go first to Ms. 
Christensen for questions.
    Ms. Christensen. Thank you. Thank you, Mr. Chairman.
    My first question would be to Ms. Masica. Ms. Masica, 
according to your testimony, in Fiscal Year 2001, $5 million in 
recreational fee demonstration funds were made available to 
address accessibility needs in low revenue and non-collecting 
parks, and your testimony goes on to state that the National 
Park Service proposes that a similar program be set up for 
2007.
    Were the rec. fee demo. funds allocated for this purpose in 
Fiscal Year 2002 through 2006, and if they weren't, why not?
    Ms. Masica. Ms. Christensen, there were projects, 
accessibility projects that were done within sort of each 
park's allocation out of the fee money. There wasn't an off-
the-top set aside, and that is what we are talking about doing 
in 2007, but the fact that they were done by the parks, there 
was still a significant amount of work that was done in those 
intervening years.
    Ms. Christensen. OK, thank you.
    The 2000 report of Congress on increasing outdoor 
recreation opportunities, the persons with disabilities noted 
that the National Park Service has a small, understaffed office 
on an accessibility that primarily deals with complaints, and 
provides consultation services to assist units of the park on 
matters of accessibility.
    While this office does know both the law and the right 
thing to do, but it has a very low profile, and the staff is 
generally at a very low level within the agencies, and many 
agency personnel don't even know that it exists. So what has 
the National Park Service done to increase the visibility and 
effectiveness of this office, and do all park units and 
regional office have in place accessibility coordinators?
    Ms. Masica. I would have to go back and check as far as 
every park. I believe every park does. Whether they are full 
time or they are collateral duty might be the issue, and each 
region also has a coordinator who handles these 
responsibilities in a similar fashion.
    I think one of the things that we have tried to do to make 
our outreach as broad as we can is to not rely just on the 
capacities of our own internal staff, but the cooperative 
agreement that we have with the National Center on 
Accessibility has been a significant tool to help us broaden 
our outreach through the technical assistance and also the 
training that is provided in the work that we support mutually.
    Ms. Christensen. I am concerned in asking that question 
that people know that it exists, and that it does more than 
just provide technical assistance to the parks, but really 
provides some actual help, whether through the partnership or 
otherwise, but we want to make sure that the services are 
available to assist persons with disabilities.
    Mr. Harding, it is my understanding that the U.S. Access 
Board's outdoor developed area final report was completed in 
1999. When would you expect to have the guidelines finalized, 
and is there a reason why it took from then to whenever to get 
those guidelines in place?
    Mr. Harding. Thank you for the question.
    As I mentioned in my testimony, we are presenting to the 
OMB the guidelines here in June of 2006. That is next month. In 
terms of when will they be finalized, ma'am, I could only yield 
to my general counsel, and the process that is available to our 
whole system to realize a final document, and if we need 
additional comment on expectation, I would need to ask counsel.
    Ms. Christensen. OK, but they will go to OMB next month?
    Mr. Harding. Yes, ma'am.
    Ms. Christensen. Next month, OK. Thanks.
    Mr. Robb, your testimony notes that significant strides 
have been made in recent years, particularly in the area of 
physical accessibility, but that much more needs to be done, 
and that with appropriate resources you could assist the 
National Park Service in the future to accelerate the 
accessibility improvements.
    Could you give us an idea of what the National Center and 
even the Park Service, if you have that information, would need 
in the way of appropriate resources, what would be the 
appropriate resources that you would think would be needed in 
order to make those improvements?
    Mr. Robb. I am not sure that I could give you a figure. We 
have a very small staff. We think that through our technical 
assistance and training we reach a lot of people at that level. 
It is very difficult for us to get out to and provide in-depth 
consultation and assistance to parks, although we do that as 
often as we can.
    We have actually in the past year requested through the 
division which the accessibility management program is in 
increase funding through the Park Service to assist us and 
providing more of the type of support that we are providing. 
You know, we are hopefully going to be working with the Park 
Service on their condition assessments, and I think that once 
that is done relative to accessibility we will have a much 
better sense of what the needs are.
    Mr. Pearce. Thank you. We have been called to vote. We have 
about 10 minutes left. I am going to go ahead and ask my round 
of five minutes of questions. We will ask you all to stay in 
place if you would. It will be probably 15 or 20 minutes, two 
votes, and then we will be back and go for a second round of 
questions.
    Mr. Robb, you are in a really good position to measure the 
change. Since 1992, you have been instructing people in the 
Park Service. How has the internal culture evolved during that 
time? Have you seen a change and what is the status of the 
internal culture regarding access?
    Mr. Robb. I think in two ways, two areas that I would say 
we have really seen change. In 1992, many of the people that 
were involved in our training programs were there because they 
had to be. They were told to be. We don't find that to be the 
case anymore. We find people coming to our training programs 
because they want to the right thing. They just don't always 
understand how to get there. I think that has been very 
significant.
    We have also noted in our training programs that people in 
general are much more aware of the requirements of 
accessibility, and the need to provide accessibility, and are 
excited to get the information to assist them in being able to 
make efforts and make strides in increasing the accessibility 
in their parks.
    As I said in my testimony, I think we probably still have 
only scratched the surface in terms of the numbers of people 
that we have been able to reach. The biggest disparity that we 
see now is not so much in the area of understanding what the 
requirements for physical accessibility are, but the 
understanding of the requirements for programmatic 
accessibility.
    Mr. Pearce. Ms. Masica, you had mentioned that you are 
limited by the age and the size of some of your infrastructure. 
If you were to take a look at new construction since the early 
nineties, would you guess that the Park Service has been 100 
percent in their performance making accessibility or making 
access a key issue in new construction?
    Ms. Masica. I think we have certainly tried to. One thing 
that is interesting, Mr. Chairman, is that in a number of our 
construction projects each year are actually not building new 
buildings, but are rehabilitating many of those existing 
buildings. But when we are doing that, we are certainly trying 
to look at accessibility has been a part of it.
    Mr. Pearce. But if you were to take a guess at the percent, 
have you reached 100 percent in new construction?
    Ms. Masica. I would like to think we are close to 100 
percent, but I am quite sure that somebody could trip me up 
somewhere so I wouldn't want to go to a number.
    Mr. Pearce. Mr. Harding, do you have an opinion about that? 
Do you all look at this sort of a thing, compliance? Mr. Robb, 
I would ask you the same question.
    Mr. Harding. I have a personal opinion, Mr. Chairman, that 
we can always do a better job in providing accessibility to 
persons with disabilities. But I think, you know, she is 
correct with her alterations and compliant with the Americans 
With Disabilities Act, sir.
    Mr. Pearce. Mr. Robb?
    Mr. Robb. I couldn't go back to 1992. I would say that in 
our experience in talking with people in the National Park 
Service and through our training and technical assistance 
programs there is certainly a much greater percentage of 
compliance with the minimum standards.
    Mr. Pearce. In new construction?
    Mr. Robb. In new construction.
    Mr. Pearce. And the reason I ask the question is, frankly, 
I bump into some new construction and bump into people who say, 
``we forgot,'' and so one of the purposes of the hearing is to 
elevate the whole concept just a little bit. I think you all 
have made very good points.
    Ms. Masica, how do you handle complaints? You get 
complaints under the system all the time, I am sure. We get 
complaints all the time about access. Exactly what is the 
system that the park uses to implement changes when it is 
possible?
    Ms. Masica. In its simplest form, Mr. Chairman, we are 
aware of the complaints at the national level, then we work 
with the park in the region to address them. The response has 
to come back through us at the national level to respond back 
to the Access Board, but generally the response has identified 
how the complaint has been dealt with.
    Mr. Pearce. Do you ever hear of anything that the Park 
Service down at the lower level just didn't deal with because 
we are going to get into some of these in a bit?
    Ms. Masica. Yes. I think that there are and I think that is 
where we try to work with the regions to make sure that the 
regions are also aware and working with the parks. Then there 
are other instances where the nature of the problem just takes 
a longer time to get to a solution.
    Mr. Pearce. Sure, and also that culture thing that we were 
talking about before that has evolved some since 1992.
    I think we are going to recess at this moment, and we will 
reconvene as soon as we can get back over after the second 
vote.
    I thank you for your testimony and the questions and 
answer.
    [Recess.]
    Mr. Pearce. Well, if we can, we will resume and we might 
have other such votes, so we will work our way through that 
today.
    Mr. Robb, do you all just work in infrastructure or do you 
also work in the programmatic area or visual displays.
    Mr. Robb. Both.
    Mr. Pearce. Both?
    Mr. Robb. Yes.
    Mr. Pearce. What do you mean? One reason that we are having 
this hearing is last year a group of kids, junior high and high 
school, the school for the visually handicapped, from my 
district in New Mexico, was here, and they have brought the 
question to us, ``Well, why is there nothing in the Capitol for 
us?'' So I thought that was a significant question. We began to 
ask it, and then we began to get input from the Access Board. 
So it kind of evolved into this hearing.
    What do you see for the visually handicapped?
    Mr. Robb. Well, I think that, as I indicated in my 
testimony, that the physical accessibility is much more cut and 
dried. It is much more easy to determine, you know, if you have 
a ramp at the right slope or the grab bars in the restroom and 
that sort of thing.
    The programmatic access, whether it is true an audio-
described video program or through captioning or through 
tactile exhibits, just a little bit--there just hasn't been as 
much attention on that area. It is sort of a hierarchy of 
needs, I think, as you go through. So that area is much less 
developed in most park and recreation agencies, and I would 
suggest probably including the National Park Service.
    Our technical assistance requests from the National Park 
Service and other Federal agencies has really swung fairly 
substantially from how do you make a restroom accessible to 
what do I do about making our exhibits or our wayside exhibits 
or our video program accessible to people that have visual 
impairments, or who have hearing impairments.
    Mr. Pearce. Mr. Harding, would you like to comment on that? 
Do you all get into this area at all?
    Mr. Harding. Well, sir, we have had about 18 complaints in 
the last five years. Most of those----
    Mr. Pearce. Is that a lot or is that not many? In the 
overall scheme, is 18 a lot in five years?
    Mr. Harding. Not very many really, sir. It is about 75 over 
the past 30 years.
    Mr. Pearce. OK.
    Mr. Harding. Primarily with the build-in environmental 
issues, and I would have to yield to my staff on some of the 
programmatic components----
    Mr. Pearce. OK.
    Mr. Harding.--on that, but I would concur on a personal 
level and an individual with a disability, and friends with a 
disability that we are evolving and really beginning to 
capture, articulate, and therefore share the outdoor and 
alternative mechanisms to communicate.
    Mr. Pearce. Ms. Masica, do you want to address that?
    Ms. Masica. I think, Mr. Chairman, that, as Gary said, that 
that is probably the area where we have more progress to be 
made than the physical side. That would be my general 
observation also, and I think we have seen a number of 
outstanding examples at some parks using again the fee revenues 
that have been available to them as they have been updating 
their exhibits to make them more available to everybody, and I 
think that that is probably where, as we continue to make 
progress, where we will need to focus.
    Mr. Pearce. Ms. Masica, concerning Segways, there was a 
visitor in my office a couple of months ago, it is very 
difficult for me to understand why you would need rules to 
interpret in certain instances. I mean, what is the status of 
that? We had a double amputee that was on one and was refused 
permission over at the Jefferson Memorial. I mean, what would 
cause the system to say no, Segway is not a vehicle for 
handicapped use?
    What in your system would cause someone to do that? Do you 
have such a tight set of rules that does not allow visual 
interpretation? Tell me a little bit about your system that 
would allow or encourage that kind of a response.
    Ms. Masica. I think what is important that we as a Park 
Service are realizing the distinction between Segways in terms 
of their use for recreational purposes and then their use for 
persons with disabilities. And the issue, I think, from the 
rule side where we have stumbled has been that they are not--
they do not meet the definition that is used for motorized 
wheelchairs, and so getting people accustomed to that just 
because it doesn't meet the definition doesn't mean we are 
precluded from evaluating it and using it--allowing it in parks 
for persons using it for----
    Mr. Pearce. Your system is so inflexible that a guy can't--
a superintendent or a ranger can't just look and say, oh, that 
is pretty obvious?
    Ms. Masica. I think that just as has been discussed at 
other points this morning as to heightening peoples' awareness 
and making them----
    Mr. Pearce. That is not even awareness.
    Ms. Masica. That is common sense.
    Mr. Pearce. It is even beyond common sense. Just a visual 
connection that, yes, I know what my rule says. It says typical 
Segways are not listed as handicap vehicles, but here before me 
I see--Jerry, is Jerry in the room today? Yes, so I mean the 
guy is right over here. And so it really astounds me that the 
system is so inflexible that people are afraid to make 
judgments about such things. I don't know. I don't know if 
there is a solution for that.
    Mr. Harding, do you have an opinion in this kind of a 
discussion?
    Mr. Harding. Well, independence and mobility is paramount 
in the world of disability. So I would encourage us to----
    Mr. Pearce. Surely, the Access Board nationwide has found 
other examples of systems that are just so inflexible people 
are afraid to move. Do you have a comment on that particular 
aspect?
    Mr. Harding. I would agree with you that there are issues 
like that out there. Yes, sir.
    Mr. Pearce. I am not trying to just make a big deal out of 
this. I just really want a discussion nationwide to occur in 
the system. I mean, we are only charged with oversight in the 
park system. I think that Ms. Christensen's opening comments 
very well pointed out that there are systems that are working 
far worse than the park system, but we are not charged with 
that oversight, and if we can have a conversation that causes 
some internal contemplation among people in the system, get the 
culture to kind of evolve just a little bit, we talked about 
that already.
    Mr. Harding, Mr. Robb said that significant strides have 
been made. That is a pretty important observation. Is that one 
you would agree with?
    Mr. Harding. Yes, sir.
    Mr. Pearce. And finally the last question I think I have, 
Mr. Harding mentions unique challenges, thoughtful 
deliberation. I mean, that is stating it as carefully and as 
mildly as you can. There are unique challenges. I don't know, 
Ms. Masica, if you have any crystal ball on how you can solve 
these unique challenges. And believe me, you have a lot of 
tough problems, and I would not change positions with you on 
this deal. It is tough.
    My brother is in a wheelchair, has been since the '70s, and 
so I have wrestled with these things off and on as we watched 
him from no--I mean, almost no access to seeing a world that is 
changing. I watched my mom go from being able to get around to 
where she can't now. She has got a walker--and that is 
difficult at best--and a motorized wheelchair. We are all going 
to have to deal with the situation. Every family, I think, is 
probably seeing it one on one. I don't know, it is pretty 
difficult stuff, talking about the trail width.
    I was out at Yosemite watching those climbers. Mr. Robb 
says the same benefit of services should be available, so that 
is something about those climbers going up that wall. We have 
the visually handicapped. I don't know, I don't know the 
answer, but what do you all in the Park Service do on these 
things? What kind of discussions do you have?
    Ms. Masica. Well, I think, Mr. Chairman, every time 
somebody points out something to us, that is an opportunity for 
a learning event for all of our managers.
    One of the things that we did was establish an 
accessibility committee that meets twice a year. They meet with 
my staff to both sort of work on the policy issues, but also 
the practical issues, and sort of learning and best practices 
and trying to share those examples.
    When you asked me the question about 100 percent, that is 
why I was trying to be very careful, because I think we are not 
at 100 percent, and we are trying to do much better. I think we 
have done much better, but I am not going to sit here and 
suggest we have solved every problem, and I think every time 
somebody becomes aware of something and points it out to us the 
burden is then on us to respond to it and then to try to make 
sure we manage so that it doesn't happen again, get repeated.
    Mr. Pearce. And I appreciate that, and if we have that 
recognition, I think that is probably the significant outcome 
of the day, that we should be able to say, no, we haven't done 
as well as we should. Significant progress is worth a pat on 
the back, and then we get into the part that my staff dearly 
hates. Yes, significant progress has been made yesterday. Let 
us pick it back up and move one more step today.
    So I would only give you one promise, and as far as the 
Segway access for people with obvious handicaps, I promise, Ms. 
Masica, that I am going to take off my congressional coat and 
tie and congressional pin, and I get almost invisible when I 
put a hat on because that is the way people in my district 
recognize me with the shine from the distance. And so we are 
going to walk around with somebody with obvious handicaps on a 
Segway one of these days through the mall, and my only promise 
is that I will take names. I don't want to be the sheriff in 
town, but if no one else is, I will. So I would just ask your 
system to be very, very conscious of that if you would, please, 
and pass the word that common sense can and should prevail in 
some instances, and even when the rules are rock solid.
    And by the way, you can also tell the other side that I 
will back up common sense when the rules say one thing, and 
common sense says the other. I take the side of common sense 
strongly on the other side, so I give you that promise too.
    I thank you all for your testimony and appreciate you 
hanging around through the vote and the break. You are welcome 
to stay. In fact, I would encourage you to stay. Sometimes the 
observations in the second panel feed back to the first panel, 
and so if you are here, we will connect with you if questions 
would drive us to that.
    I would invite our second panel up now, and while they are 
moving to the table I will introduce them. We have Mr. Jerry 
Kerr. He is the President and Founder of the Disability Rights 
Advocates for Technology out of St. Louis, Missouri. Ms. Janice 
Schacter is Chair of the Hearing Access Program, Hearing Loss 
Association of America, Bethesda, Maryland; Mr. James McCarthy 
is the Director of Governmental Affairs, the National 
Federation of the Blind, Baltimore, Maryland; and Ms. Nancy 
Starnes, Vice President and Chief of Staff of the National 
Organization on Disability here in Washington.
    We will give our panel members a moment to be seated and 
recognize them.
    Mr. Kerr, the world is on you.
    Mr. Kerr. Thank you very much.
    Mr. Pearce. Do well with your time.

STATEMENT OF JERRY KERR, PRESIDENT / FOUNDER, DISABILITY RIGHTS 
         ADVOCATES FOR TECHNOLOGY, ST. LOUIS, MISSOURI

    Mr. Kerr. Mr. Chairman, as advocates for the rights of 
people with disabilities, we thank you for the opportunity to 
appear before your Subcommittee at this oversight hearing on 
disability access in the National Park System.
    Today, more than 10,000 American citizens turned age 60, a 
trend that will continue each and every day through the year 
2020. Many are looking forward to a time soon when they will 
have more resources and opportunities to enjoy our national 
parks, monuments, and memorials. Unfortunately, they are 
quickly approaching the age group where more than 40 percent of 
them may have difficulty walking.
    Prior to the introduction of the Segway, the only practical 
mobility devices available required us to be seated in order to 
operate them. Now a solution is available to some, allowing 
mobility while remaining standing.
    As the Segway has gained popularity with people who have 
difficulty walking, many National Park Service superintendents 
have exercised good judgment and common sense allowing its use. 
But others in the Park Service have rejected its use in even 
the most urban settings.
    Superintendent Peggy O'Dell denied 78-year-old Bill 
Williams suffering from COPD access using his Segway to the 
Independence Day celebration at the Gateway Arch in downtown 
St. Louis, even though the area was trampled by hundreds of 
thousands of people, trucks, golf carts, and other motorized 
equipment.
    Superintendent Jock Whitworth denied 59-year-old Judy 
Hanson of Rockville, Utah, who suffers from a spinal cord 
injury access on her Segway to Zion National Park, threatened 
with fines and confiscation.
    On September 23, 2005, Leonard Timm, a bilateral above-the-
knee amputee, and a founder of DRAFT, was threatened with 
arrest while visiting the Jefferson Memorial.
    For almost two years, our organization has attempted 
unsuccessfully to persuade those within the National Park 
Service to issue guidance clarifying the permitted use of the 
Segway for people with disabilities. The Segway is fully 
protected as an assisted device as defined by the U.S. 
Congress.
    Common sense and good judgment would dictate that the use 
of the Segway would be preferable to that of any other mobility 
device in meeting the Park Service's objectives. It is usable 
in all indoor areas. Its tires generate virtually no sheer 
force, and having less soil compression force than a human 
footprint that is less likely to leave evidence of its presence 
than a pedestrian, all while allowing its user to participate 
in the enjoyment of our National Park System in the same manner 
as everyone else--standing.
    Last fall our organization began our Segs for Vets Program, 
donating three Segways to members of the United States 
military, who through service to our country have incurred 
disability and difficulty walking. Staff Sergeant Hilbert 
Caesar, who is here with us today, Corporal Keith Davis and 
Specialist Kevin Pannell.
    This month United States Marine Corps Corporal Ryan Groves 
will join their ranks using his Segway to finish his education 
at Georgetown University.
    In October, I was contacted by U.S. Army Captain Daniel 
Gade, who was back in Walter Reed Hospital being treated for an 
infection as a result of embedded shrapnel from wounds suffered 
while serving in Iraq, wounds which necessitated the amputation 
of his leg. He inquired about his legal right to visit the 
national mall memorials and other areas in Washington, D.C. 
which were under the control of the National Park Service while 
using his Segway.
    While we believed he had every legal right to use his 
Segway, we could not guarantee in light of recent behavior that 
the National Park Service would not threatened him with arrest 
or confiscation of his Segway.
    While it seems perplexing that the Park Service isn't 
encouraging the use of Segways for all who visit the areas 
under their control, it would appear from our conversations 
with them that there are many, not only in the Park Service, 
but also the Forest Service who feel allowing the use of 
Segways by people who have difficulty walking, even though more 
environmentally friendly, will permit too many people to visit 
our national parks and public lands.
    The Segway represents the beginning of the arrival of new 
technology devices created utilizing the principles of 
universal design which will improve the quality of lives for 
people with disabilities and senior citizens beyond which we 
ever thought possible.
    Attitudinal and policy barriers to accessibility must never 
be tolerated. This injustice could be corrected immediately 
through the stroke of a pen at no cost to our taxpayers.
    Thank you.
    [The prepared statement of Mr. Kerr follows:]

                  Statement of Jerry Kerr, President, 
               Disability Rights Advocates For Technology

    Mr. Chairman, thank you for the opportunity to appear before your 
subcommittee at this oversight hearing on disability access in the 
National Park System.
    Disability Rights Advocates For Technology is an advocate for the 
rights of people with disabilities and a champion of universally 
designed technology solutions which allow us the opportunity to more 
fully participate in our society and enhance the quality of our lives.
    Today more than 10,000 American citizens turned age 60 a trend that 
will continue each and every day through the year 2020.
    Many are looking forward to a time soon when they will have more 
resources and opportunities to enjoy our National Parks, Monuments, and 
Memorials. Unfortunately they are quickly approaching the age group 
where more than 40% of them may have difficulty walking.
    Accessibility for the more than 60 million people in the United 
States with disabilities and our seniors who have difficulty walking is 
an issue which all stewards of our federal lands must aggressively 
pursue.
    In 2003 a new assistive mobility device utilizing the principles of 
universal design was introduced. The Segway is classified by our 
Federal government as a consumer product, not a motor vehicle. Prior to 
its introduction the only practical mobility devices available to 
people with disabilities and those who have difficulty walking required 
them to be seated in order to operate them.
    Now some who have difficulty walking but can stand have a mobility 
solution available to them which allows them to remain standing. The 
ability to remain standing for as long as possible has both physical 
and psychological benefits that are well documented in medical 
literature. Many disabled individuals have received prescriptions from 
their doctors for the Segway.
    Of the mobility devices on the market today, the Segway is the most 
versatile and the safest.
    Those with disabilities using the Segway include:
    Dr. Michael Mayor, a world renowned orthopedic surgeon and an above 
the knee amputee, uses the Segway while making his rounds visiting 
hospital rooms at the Dartmouth Hitchcock Medical Center.
    Senior Federal Judge James Jarvis, in Knoxville, Tennessee, who has 
COPD onset by lung cancer, uses his Segway to travel from his courtroom 
to his office and back allowing him to maintain a more active, mobile 
and normal schedule.
    Brooke Gill a young lady from Dexter Missouri who spent two years 
in coma after a car accident sustaining a severe spinal cord injury. 
She completed her education graduating from Southeast Missouri 
University this past December. The Segway allowed her to thrive at the 
University even with its very steep hilly terrain.
    The Segway is being used by farmers to again walk fence lines and 
visit their barns and check on livestock when illness or disability had 
previously foreclosed that possibility.
    It is being used by many in their 80s who had given up traveling 
because of their difficulty walking but now, with assistance of the 
Segway, have resumed their travels and turned back the clocks of time.
    For many people with conditions such as COPD, amputations, spina 
bifida, multiple sclerosis, Parkinson's disease, spinal cord injuries 
and many other neurological conditions, the Segway has returned 
mobility we thought gone forever.
    In the three years since its introduction to the general public 
there are no reports of any substantive injuries being caused to 
bystanders from those using the Segway. As a matter-of-fact the design 
of the Segway precludes it from continuing forward once it comes in 
contact with something and the tires are designed in such a fashion 
that running over someone's foot or hand causes no injury. The same 
could not be said about the power wheelchair or scooter.
    The Segway weighs a fraction of other mobility devices and its 
stopping distance in comparison to other mobility devices, in a test by 
the Federal Highway Administration, was second only to that of a manual 
wheelchair.
    A study done by the Victoria Transport Policy Institute, which 
compared the safety of the Segway to that of other mobility devices, 
was presented at the Transportation Research Board's Annual Meeting in 
January of 2004 in Washington, DC. In assessing the relative safety of 
the Segway and its risk to others the report suggests the Segway 
represents a medium risk to others consistent with children playing 
even when operated at top speeds. Comparatively the report indicates 
that motor or powered wheelchairs represent a medium to high risk to 
others, consistent with equestrians (people on horseback).
    As the Segway has gained popularity with people who have difficulty 
walking, many National Park Service Superintendents have exercised good 
judgment and common sense allowing its use by those who have difficulty 
walking, but others in the National Park Service have rejected its use 
by them in even the most urban settings.
    A 78-year-old gentleman suffering from COPD was denied access using 
his Segway HT to the Independence Day celebration at the Jefferson 
National Expansion Memorial (The St. Louis Gateway Arch) in downtown 
St. Louis even though the area was trampled by hundreds of thousands of 
people, trucks, golf carts and other motorized equipment. 
Superintendent Peggy O'Dell, even after repeated attempts by our 
organizations to reason with her, and pointing out the provisions in 
Directors Order #42, denied access to Mr. Bill Williams because the 
Segway did not meet the definition of a motorized wheelchair. 
Superintendent O'Dell permitted Fair organizers the use of golf carts 
in all areas.
    59-year-old Judy Hanson of Rockville Utah, who suffers from a 
spinal cord injury, in an attempt to use her Segway in Zion National 
Park was told by Superintendent Jock Whitworth that she could not use 
her Segway anywhere in Zion National Park, not on the roads, not on the 
sidewalks, not on the wheelchair accessible trails, not anywhere 
because it was motorized. Superintendent Whitworth advised Ms. Hanson 
that her use of the Segway in Zion National Park could result in her 
being fined and her Segway being confiscated.
    On September 23, 2005, Mr. Leonard Timm, a bilateral above the knee 
amputee, and a founder of DRAFT, was threatened with arrest by the 
National Park Service while in Washington, DC, using his Segway 
visiting the Jefferson Memorial.
    For almost two years our organization has attempted unsuccessfully 
on a monthly basis to persuade those within the National Park Services 
Upper Management to issue guidance clarifying the permitted use of the 
Segway for those who have difficulty walking.
    Common sense and good judgment would dictate that the use of the 
Segway would be preferable to that of any other mobility device in 
meeting the National Park Service's objectives.
    It is usable in all indoor areas. The tires on the Segway HT 
generate virtually no shear force, and have less soil compression force 
than a human footprint. The Segway poses less likelihood of impairing 
the landscape and environment through soil compaction and rutting than 
manual wheelchairs or motorized wheelchairs.
    Indeed the Segway is less likely to leave evidence of its presence 
than a pedestrian. It requires no more accommodation than that of a 
wheelchair, and in most cases less, it is more maneuverable than 
wheelchairs or scooters and allows its user to participate in the 
enjoyment of our National Park System in the same manner as everyone 
else: standing.
    The Segway is not a wheelchair. It is an assistive device. The ADA 
guidance issued by the United States Department of Transportation on 
September 1, 2005 correctly identified the Segway when used by a person 
with a disability as a mobility device which is part of a broad class 
of mobility aids occupying a legal position analogous to canes, 
walkers, etc. ...
    Many within the National Park Service have been quick to point out 
that they have no legal mandate under the ADA; however all Federal 
Agencies must comply with the Section 504 of the 1973 Rehabilitation 
Act.
    The Segway is fully protected as an assistive device as defined by 
the United States Congress which defined an assistive technology device 
in ``The Rehabilitation Act Amendments of 1973, As Amended'' as ``any 
item, piece of equipment, or product system, whether acquired 
commercially, modified, or customized, that is used to increase, 
maintain, or improve functional capabilities of individuals with 
disabilities.''
    In the Draft 2006 NPS Management Policies it states:
        ``A primary principle of accessibility is that, to the highest 
        degree practicable, people with disabilities should be able to 
        participate in the same programs and activities available to 
        everyone else. In choosing among methods for providing 
        accessibility, higher priority will be given to those methods 
        that offer programs and activities in the most integrated 
        setting appropriate''.
    The issue of a disabled person who has the ability to stand but has 
difficulty walking and requires a mobility aid, being forced to sit in 
either a wheelchair or a scooter is unreasonable and unlawful.
    Last fall our organization began our Segs4Vets program donating 
Segways to members of the United States Military who through service to 
our country have incurred disability and difficulty walking.
    Staff Sergeant Hilbert Caesar of South Ozone Park New York, who 
lost his right leg as a result of wounds suffered on April 18, 2004 on 
a road near Baghdad, Corporal Keith Davis of Lumberton Texas, who lost 
his leg as a result of wounds suffered on August 3, 2005, in Iraq and 
National Guard Army Specialist Kevin Pannell of Dierks Arkansas who 
lost both of his legs as result of wounds suffered on June 13, 2004 
while patrolling little Fallujah, a rundown insurgency ridden 
neighborhood in central Baghdad were our first three recipients.
    They will be joined this month by United States Marine Corps 
Corporal Ryan Groves of Charlestown Ohio who lost his left leg in a 
rocket attack in Fallujah and after 38 surgeries will be discharged 
from the Amputee Patient Care Center at Walter Reed Hospital to 
complete his undergraduate studies at Georgetown University, and 
ultimately attend Law School here in Washington.
    We have also donated two Segways to the Amputee Patient Care Center 
at Walter Reed Hospital that are being used by our soldiers to travel 
between their quarters in Mologne House and their therapy each day. 
This month we will donate a Segway to the Physical Therapy Department 
at the National Naval Medical Center in Bethesda.
    Last fall I was contacted by U.S. Army Captain Daniel Gade who was 
back in Walter Reed Hospital being treated for an infection as result 
of embedded shrapnel from wounds suffered in battle while serving in 
Iraq. Wounds which necessitated the amputation of his leg. Until the 
infection was cleared up Captain Gade was unable to wear his prosthetic 
leg, but he does use a Segway.
    Captain Gade inquired about his legal right to visit the National 
Mall Memorials and other areas in Washington, DC which were under the 
control of the National Park Service while using his Segway.
    We advised Captain Gade that while we believed he had every legal 
right to use his Segway as his mobility device we could not guarantee, 
in light of recent behavior, that the National Park Service would not 
threaten him with arrest or confiscation of his Segway.
    There's no rational explanation for anyone within the National Park 
Service to deny the use of the Segway by a person with a disability 
simply because it has a motor. The Segway attains the goal of 
protection to the environment at the highest level currently available. 
It is quiet and there is no other means of mobility available today 
including the wheelchair, scooter, horse, or even the human footprint 
which will cause less damage to the environment and leave less evidence 
of its presence than the Segway.
    While it seems perplexing that the National Park Service isn't 
encouraging the use of Segways for all who visit our National Parks and 
Monuments, it would appear from our conversations with those in the 
National Park Service that there are many, not only within the National 
Park Service but also the United States Forest Service, who feel that 
by allowing the use of Segways by people who have difficulty walking, 
even though more environmentally friendly, it will permit too many 
people to visit our National Parks, and other areas under their 
control.
    Attitudinal and policy barriers to accessibility must never be 
tolerated. This injustice could be corrected immediately through the 
stroke of a pen, by either the Secretary of the Interior or the 
Director of the National Park Service, at no cost to our taxpayers.
    The Segway represents the beginning of the arrival of new 
technology devices created utilizing the principles of universal design 
which will improve the quality of lives for people with disabilities 
and senior citizens beyond which we ever thought possible.
    Through the use of the Segway our Public Lands will be accessible 
in a more environmentally friendly mode for the enrichment of more 
people than ever before.
    NOTE: Attachments to Mr. Kerr's statement have been retained in the 
Committee's official files.
                                 ______
                                 
    Mr. Pearce. Thank you.
    We have another one vote. I think I am going to break at 
this point, and run over. I should be back in seven-eight 
minutes, and at this point, Ms. Masica, if you can really hang 
around. I mean, I think we want to delve into this quite a lot, 
especially the comment about the fear of the system that the 
Segways would permit too many people to visit, and that is 
probably going to get us right down to the focus of this 
hearing if there is a systemic prohibition in order to hold 
down visitation at the expense of one class. That should be the 
topic of the discussion, so I think Mr. Kerr has brought us to 
a good conversation point.
    We will stand in recess for just a few moment. We will be 
back as soon as we can. Ms. Schacter, we will recognize you at 
that time.
    [Recess.]
    Mr. Pearce. Thank you.

 STATEMENT OF JANICE SCHACTER, CHAIR, HEARING ACCESS PROGRAM, 
    HEARING LOSS ASSOCIATION OF AMERICA, BETHESDA, MARYLAND

    Ms. Schacter. Thank you for inviting me today to discuss 
access for the hard of hearing and deaf at our national parks.
    My name is Janice Schacter. I am the Chair of the Hearing 
Access Program and the mother of an 11-year-old daughter who is 
hard of hearing, and sometimes I am the sheriff for the hard of 
hearing.
    I am here today representing the Hearing Loss Association 
of America. Thirty-one-and-a-half million people have some form 
of hearing loss. This represents approximately 10 percent of 
the population and rises to 30 percent for people over the age 
of 65.
    The national parks are mandated via Section 504 of the 
Rehabilitation Act of 1973, as amended, the more stringent DAC. 
to be accessible to everyone. Unfortunately, they are not.
    In the last year and a half, our family has visited several 
national parks. On each of these occasions, we encountered 
problems. The amount and type of access varied, and there was 
no ability to anticipate the access since the national park 
website did not always reflect what was available. Two 
examples: Ellis Island and Gettysburg.
    Our family decided not to visit Ellis Island last year 
because of inappropriate access for our daughter. The boat had 
no assistive listening devices, also known as ALDs, no 
captioning. The films had no assistive listening devices, and 
only some were captioned. And there were no assistive listening 
devices for docent tours even though there were poor acoustics 
in the Great Hall. It did, however, have neck loops for the 
audio guides.
    To date, the issues are still not resolved. What do I say 
to my daughter who continually asks to visit Ellis Island and 
does not understand why the park is still not accessible?
    In March, our family went to Gettysburg. We found no 
captioning or assistive listening devices for the introductory 
film. In fact, we were told the system broke last year and it 
went unfixed. Also, the accessibility section on the website is 
a blank page.
    Every vacation to a national park becomes disappointing 
because the inconsistent and inappropriate access proves 
frustrating to our daughter.
    I have a stack of letters from people who reiterate similar 
issues. These treasure sites belong to everyone and it is a 
shame that my daughter and others with a hearing loss cannot 
fully appreciate them.
    After our family's disappointing visit to another national 
park, I decided to rectify the situation. Through various phone 
calls, meetings and training sessions, it has become clear to 
me that the system is designed for failure. There are three 
issues that seem to be the greatest hurtles.
    One, there are no incentives to encourage compliance. The 
parks appear to be stretched financially and have endured 
personnel cutbacks. Requiring them to finance access out of 
their regular operating budget is difficult. Essentially the 
ADA is a mandate that is not paired with funding, and my 
understanding is that there was previously a budgeted amount 
specifically for access issues, but this was eliminated. I now 
hear it is thinking about being reinstated. However, lack of 
finances is not an excuse for inappropriate access.
    In addition, we need to ensure that there is an appropriate 
allocation from these funds. Accessibility does not mean 
mobility issues. It means other things, and it is also needs 
more than headsets and signed qualified interpretation.
    There is also no accountability. It is my understanding 
that some of the parks were allowed to retain a percentage of 
revenue so that it can go back to the local community. While 
this is a laudable goal, the result is that no one is 
monitoring the availability of these locally produced 
exhibitions. Even if management of a park wants to go through 
Harpers Ferry, some of the work is now being outsourced. The 
result is there is less control over ADA compliance.
    It is also my understanding that each of the national park 
superintendents failed--many of the national park 
superintendents failed to complete a survey on access for the 
web. The web reveals this. Many of the pages are blank.
    In addition, ADA compliance was supposed to be part of a 
local superintendent's review, but this was eliminated. The 
superintendents felt that without appropriate funding it was 
impossible for them to comply. The bottom line, there was no 
monitoring, no accountability, and the only people who are 
suffering are those with hearing loss.
    The staff also has a mixed level of training. There is a 
lack of understanding across the country that hearing loss is 
invisible. There is a range of hearing loss, and the needs and 
accommodations vary. For example, children generally below 
fourth grade cannot read captioning. Appropriate training and 
annual reviews of park personnel must be a job requirements.
    Also, many of the parks do not have a 504 coordinator. 
Therefore, they have other responsibilities, and access gets 
pushed to the bottom of the list. The only way is to force the 
priorities to follow 504 complaint. Our family has done this on 
many occasions, but it seems a ridiculous way to ensure ADA 
compliance.
    The mandate of the National Park is to be accessible to 
everyone. With these proposals and adequate training, and I 
listed details in my written work, the National Parks can offer 
consistent access for visitors who are hard of hearing and 
deaf, and allow them to visit the national parks and experience 
their America, a right entitled by law.
    Thank you for the opportunity for allowing me to testify.
    [The prepared statement of Ms. Schacter follows:]

     Statement of Janice Schacter. Chair, Hearing Access Program, 
                  Hearing Loss Association of America

    I welcome this opportunity to share important information about the 
accessibility needs of people with hearing loss with you. My name is 
Janice Schacter. I am the Chair of the Hearing Access Program and the 
mother of an 11-year old daughter who is hard of hearing.
BACKGROUND:
    I am here today representing the Hearing Loss Association of 
America (``HLAA'') formerly known as Self Help for the Hard of Hearing 
People, Inc. HLAA is the nation's largest consumer organization 
representing people with hearing loss. HLAA's national support network 
includes an office in the Washington D.C. area, 13 state organizations, 
and 250 local chapters. HLAA's mission is to open the world of 
communication to people with hearing loss through information, 
education, advocacy and support.
    HLAA's constituents are people with hearing loss who use hearing 
aids, cochlear implants and other technology to function in their daily 
lives. They use spoken language and not American Sign Language 
(``ASL''). Currently, 31.5 million people have some form of hearing 
loss. This number is expected to increase to 40 million people within 
one generation. This number represents 10% of the population. It rises 
to 30% in the population of people over 65. The needs of the people 
within the population that is hard of hearing and deaf vary depending 
on the degree of hearing loss, what type of hearing device a person 
utilizes, when the hearing loss was diagnosed, the level of auditory 
training has received and the person's age. Appropriate access requires 
a variety of different types of equipment matched to the needs of 
different segments of this population. [Please see Chart 1.]

BASIC REQUIREMENTS:
    ``Section 504 of the Rehabilitation Act of 1973, as amended, 
prohibits discrimination on the basis of disability in federally 
conducted programs of the Department of Interior''. the Department of 
The Interior administrative policy requires that the Americans with 
Disabilities Act Accessibility Guidelines be used where it is equal to 
or greater than the Uniformed Federal Accessibility Standards.'' (Taken 
from Section 504 Accessibility Site-Review Dated December 20, 2005.)

ISSUES:
    In the last year and a half, our family has visited several 
National Parks. On each of these occasions, the type of access 
available was inconsistent. Some parks might have had some of the items 
of access for people who are hard of hearing but some items are not 
appropriate for some levels of hearing loss. Also, some parks have 
appropriate access and others do not. There is not, however, a way to 
anticipate if appropriate access is in place. The NPS website does not 
accurately reflect what is available at each local park.
    On a visit to Castillo de San Felipe del Morro in San Juan, Puerto 
Rico, my daughter could not hear or follow the introductory film since 
neither Assistive Listening Devices (ALDs) nor captioning were 
available. There is no access information on the website for people who 
are hard of hearing or deaf.
    We decided not to visit Ellis Island last year because my daughter 
would not have heard the announcements on the boat, only some of the 
films were captioned, there were no ALDs for the films, there were no 
ALDs for docent tours and the acoustics in the Great Hall were poor. 
They did, however, have neck loops for the audio guides and the website 
did have some information for people who are hard of hearing or deaf. 
In the end, our family chose not to visit the site since she could not 
hear and it would not have been worthwhile for my daughter.
    On a recent vacation to Gettysburg, we again found no captioning or 
ALDs for the introductory film. In fact, we were told that the system 
broke last year and it went unfixed. Also, the accessibility section on 
the website is a blank page.
    At Mammoth Caves in Kentucky, there was captioning but it was so 
small that it was impossible to read and there were no ALDs. The 
accessibility section on the website states that ``The requested URL 
was not found on the server.''
    Every vacation to a National Park becomes disappointing because the 
inconsistent and inappropriate access always proves frustrating to our 
daughter. I have a stack of letters from members of the HLAA who 
reiterate similar issues. These treasured sites belong to everyone and 
it is a shame that my daughter and others with hearing loss can't 
appreciate them the way she could have.
    After our family's disappointing visit to the San Juan National 
Park, I decided to contact the National Park Service (``NPS'') to 
rectify this chronic situation. Through my various phone calls, I have 
had several meetings this year with NPS staff and have even done a 
training session for senior NPS staff on appropriate access for the 
hard of hearing and deaf at the National Parks. From these 
conversations, it has become clear to me that the design of the system 
preordains failure. The following issues appear to be the greatest 
hurdles to achieve appropriate access at The Parks:
1. No Incentives to Encourage Compliance
    The Parks appear to be stretched thin financially and have endured 
personnel cutbacks. Requiring them to finance access out of their 
regular operating budget is difficult. Essentially, the ADA is a 
mandate that is not paired with funding. Appropriate access is not 
accomplished since there is no money to fund it. My understanding is 
that there was previously a budgeted amount specifically for access 
issues. Somehow, this was eliminated. Funds for access need to be 
reinstated. Lack of finances, however, is no excuse for inappropriate 
access.
    In addition, we need to ensure that accessibility for people who 
are hard of hearing and deaf receive an appropriate allocation from 
these funds. Too often, appropriate access for the hard of hearing is 
misunderstood. Access for people who are hard of hearing or deaf is 
more than sign language and headsets. Although they are key components 
to access, it is not the whole picture. Access for people who are hard 
of hearing or deaf require assistive listening devices, captioning and 
sign language interpretation. What is appropriate depends on the venue 
and its programming services. I will address the specifics below.
2. No Accountability
    It is my understanding that some of the parks are allowed to retain 
a percentage of their revenue. In addition, exhibition work, e.g. 
films, can be produced locally rather than at Harper's Ferry. The goal 
is to allow revenue to remain in the local community. While this is a 
laudable goal, the result of this local disintermediation is that no 
one is monitoring the accessibility of these local exhibitions. The 
result is that films are produced without captioning and assistive 
listening systems are not in place.
    Even if local management at a park wants to go through Harper's 
Ferry, the work that previously was done in-house at Harper's Ferry is 
now out-sourced. The result is that there is less control over ADA 
compliance.
    It is also my understanding that the national office of NPS has 
consistently requested each Superintendent to complete a survey on his 
or her park's accessibility. It is my understanding that the responses 
were inconsistent. The absence of appropriate access information on the 
NPS website is indicative of this mixed response. How can anyone plan a 
trip to a Park if they cannot find appropriate access information on 
the park's web site?
    In addition, ADA compliance was supposed to be part of each local 
Superintendent's annual performance review, but was eliminated because 
of complaints by the superintendents. The superintendents felt their 
performance was being judged unfairly since it was impossible to comply 
with the ADA without appropriate funds. The bottom line: there is no 
monitoring of ADA compliance, there is no accountability and 
appropriate access for the hard of hearing and deaf is not consistently 
available at the parks.
3. Inconsistent Training
    The staff at the parks has a mixed level of training and 
understanding of the needs of people with disabilities. Unlike mobility 
issues, hearing loss is invisible. Staff cannot immediately identify 
who needs what type of accommodation. The staff sometimes assumes that 
no accommodation is needed because they cannot see the effects of 
hearing loss. There is a lack of general understanding across the 
country that there is a range of hearing loss and the needs and 
accommodations vary based on the degree of hearing loss, what type of 
hearing device a person utilizes, when the hearing loss was diagnosed, 
the level of auditory training the person has received and the person's 
age. For example, generally children below 4th grade cannot read 
captioning. Therefore, appropriate training of all park personnel must 
be in place and there need to be annual updates. This training must be 
a job requirement and part of the annual review.
    In addition, there needs to be a full-time person at each park 
devoted to appropriate access otherwise known as a 504 Coordinator. At 
many parks, the access coordinator has many additional duties and 
access gets pushed to the bottom of the list. It becomes a low priority 
for the park. This was evident at each of the parks that our family 
visited. The end result is that the only way to force the priority is 
to file a 504 complaint. Our family has filed a 504 complaint on all of 
these occasions but this seems a ridiculous way to ensure ADA 
compliance. There needs to be a 504 coordinator and appropriate 
training to ensure appropriate access at each park.

APPROPRIATE ACCESS AT THE PARKS
    In order for NPS to have full access, NPS must always offer the 
following three types of access to meet the needs of the entire range 
of people who are hard of hearing and deaf and to have consistent 
access at each park:
    <bullet>  Assistive Listening Devices (Headsets and Neck Loops)
    <bullet>  Captioning
    <bullet>  Qualified Interpreters
    All three items must be in place whenever there is audio output. In 
addition, there must be appropriate staff training and signage.
    These three services can be implemented at the National Parks as 
follows:
A. Theater
    The ADA Guidelines require ALDS (Headsets.) Currently, neck loops 
are awaiting the Department of Justice's approval. Neck loops should be 
available since headsets do not work for someone with more than a mild 
hearing loss. The volume control is not strong enough. Neck loops allow 
the person's own hearing aid to regulate the volume. These Guidelines 
apply to all theaters that are places of public accommodation with 50 
or more fixed seats. (The elimination of the fixed seat requirement is 
awaiting the Justice Department's approval.) The ALDs receive the sound 
via a sound system. There are currently three types of systems that are 
available:
    <bullet>  FM--This system works via a radio frequency.
    <bullet>  Infrared--This system works via a beam of light.
    <bullet>  Induction Loop--This system utilizes an electro-magnetic 
coil around the room to create a magnetic field. Hearing aid wearers 
with T-coils receive the sound directly via their hearing aids or 
cochlear implants.
    There are several factors that would determine which system would 
be appropriate for each site. The Kennedy Center's Guide to Assistive 
Listening Systems for Theaters is a useful tool to aid in assessing 
which system is appropriate for each venue.
1. Assistive Listening Devices
    ALDs (headsets or neck loops) enable visitors to receive sound 
directly in their ears. There are different styles of receivers. Some 
ALDs fit directly into the ear and some require headphones or neck 
loops to be plugged into the output jack of the receiver that is the 
size of a deck of playing cards. The type of ALS selected is based on 
the person's degree of hearing loss, whether they use a hearing aid or 
cochlear implant, the age the person lost their hearing, the level of 
auditory training they received and their current age. A signal is sent 
from the system to the receiver. If an Induction Loop System were 
utilized then only someone without a T-coil would need to wear a 
receiver. Anyone with a T-coil would just activate the T-coil on his or 
her hearing aid to hear the sound. ALDs allow someone to increase the 
volume and receive the sound directly in their ear without disturbing 
anyone else. A Population Chart detailing the degrees of hearing loss 
and what type of accommodation needed is attached. [See Chart 1] Also, 
a FAQ Sheet on neck loops and T-coils is attached. [See Chart 2] The 
League for the Hard of Hearing prepared the FAQ sheet.
    When installing the system, it is important to ensure the 
appropriate number of receivers is available at any given place of 
assembly. The requirements are detailed in the ADA Accessibility 
Guidelines (ADAAG). ADAAG can be found at www.access-board.gov. For 
your reference, I have attached some Technical Support for Assistive 
Listening Systems. [See Chart 3]
2. Captioning
    Unfortunately, not all people can utilize the ALDs due to the 
severity of their hearing loss. [See Chart 1] In addition to the 
assistive listening system, NPS should offer captioning for all films. 
There are two methods of captioning, open and closed. Open is when the 
captioning is always on and either appears on the film screen or a data 
strip below the screen. Closed captioning is when it is either turned 
on and off or selectively seen by only those who need it.
    We recommend offering open captioning. Open captioning is easiest 
since there is nothing to maintain and nothing to turn on and off. It 
is always visible. Many people are embarrassed by their hearing loss 
and will not ask for the assistance they require. Open captioning 
allows people to participate without feeling any stigma they may 
perceive is attached to hearing loss. Therefore, if the event is a 
film, then a captioned version of the film should be ordered. We 
suggest inserting a clause in NPS' contracts that all films must be 
captioned.
    For closed captioning, it can be either seen on the screen only 
when someone turns on the captions or when a special data panel is 
affixed to the seat. Please be aware that these data panels need to be 
cleaned and maintained.
    If, however, the event is a lecture then Computer Assisted Real 
Time Captioning (``CART'') should be offered for specifically scheduled 
lectures or presentations. CART provides access for people whose 
hearing loss is more profound and cannot use the assistive listening 
system. It is the exact translation, which is similar to a court 
reporter transcribing a statement of a witness.
3. Qualified Interpreters
    Qualified interpretation (ASL, Oral, Transliteration or Cued 
Speech) needs to be offered in the appropriate format that is tailored 
to the individual to achieve effective communication. Also, ASL is not 
English. ASL is a visual language with its own syntax and grammar that 
is quite different from the English language. For example, instead of 
saying, ``There goes the blue car,'' ASL would sign, ``car, blue.'' For 
some people who communicate primarily using ASL, a qualified 
interpreter will be necessary to ensure effective communication. For 
some people who are hard of hearing or deaf and do not use ASL, 
captioning may be necessary to ensure effective communication.
    Most people with hearing loss, including many with profound loss, 
do not use ASL. ASL should still be included as a component of access 
but it is not a solution for access for the majority of people with 
hearing loss. Qualified sign interpretation should be offered for 
scheduled and/or announced events and/or upon request with reasonable 
advance notice.
    For CART and signing, it is imperative that the quality and 
accuracy are checked prior to hiring them. There is a wide range in 
skill level among those who caption and sign. Poor quality captioning 
or sign language does not provide appropriate access.
Note:
    Appropriate seating should be available for those who rely on lip 
reading. This is very important, because the levels of hearing loss are 
not clearly defined even though it appears that way on The Population 
Chart. [See Chart 1] There is overlap between the groups. Some people 
(like my daughter) who rely on an ALD still miss some of the critical 
dialogue. Lip reading helps to fill in the gaps. Seat placement is 
critical for lip reading. The theater attendee must be near the stage 
and not view the speaker from an odd angle. For this reason, an 
appropriate number of seats should be made available. This is no 
different than those patrons who need special seating for wheelchair 
accommodations or for visual access.
B. Audio Guide Tours
1. Assistive Listening Devices
    When audio guides are available, it is imperative that neck loops 
or t-coil compatible audio guides are available and that appropriate 
signage is posted.
2. Captioning: Transcripts
    Transcripts in regular and large print should be available.
3. Qualified Interpreters
    This should be offered for scheduled and/or announced tours and/or 
upon request with reasonable advance notice.
C. Docent Tours
    FM systems are ideal for docent tours that are mobile to overcome 
poor acoustics that even challenge people who do not have a hearing 
loss.
1. Assistive Listening Devices
    As mentioned earlier, the ADA requires a certain number of ALDs for 
theaters. The ADA, however, is not clear on the number of ALDs required 
for FM-led docent tours. Therefore, to determine the appropriate number 
of neck loops, we recommend using the same 4% number from the ADA and 
applying it to the number of FM receivers instead of the number of 
seats.
2. Captioning: Transcripts
    Transcripts of the docent tour should be available in regular and 
large print for those visitors who cannot use ALDs.
3. Qualified Interpreters
    Qualified interpretation should be offered for scheduled and/or 
announced tours and/or upon request with reasonable advance notice.
D. Videos
    It is important when installing multiple videos that the acoustics 
are considered. Many new museums are offering multi-media presentations 
without understanding how competing sound affects a person's ability to 
hear and thus learn. Hiring an acoustical engineer is recommended. Some 
items that other museums have utilized to deal with the acoustical 
issues are the installation of theater curtains and utilizing headsets 
and neck loops for individual monitors. But again, an acoustical 
engineer should be consulted.
1. Assistive Listening Devices: Induction Loop System
    If a video or film does not have sound then a sign should be posted 
stating, ``No Sound.'' This would inform the visitor who is hard of 
hearing or deaf not to expect sound or an ALD. If there is just ambient 
music playing then musical symbols should be posted on the monitor or 
if there is one type of background sound then it should be clearly 
identified on a nearby sign.
    Both seeing and hearing a film or video provide certain benefits. 
If an individual who is hard of hearing can receive the same benefits 
of sound (loud, soft, angry, happy, sad, singing etc.) with a 
reasonable modification of an ALD, then an ALD is required to be 
provided for an equal opportunity to effectively participate. 
Captioning does not generally work for children below approximately 4th 
grade who are unable to read quickly enough. As mentioned earlier, the 
needs of hearing loss vary by age just as they vary based on the degree 
of loss. One way to meet the needs of young children, who can't read or 
read quickly enough as well as those who rely heavily on their hearing 
aids, is to provide an induction loop system around any audio exhibit. 
In layman's terms, sound is transmitted through a thin wire surrounding 
the exhibit area via magnetic energy. For your reference, to loop an 
area could cost as low as $750. In order to learn more about looping, 
please visit www.hearingloop.org. An alternative to an induction loop 
system is to install headsets and neck loops adjacent to the monitor.
2. Captioning
    To provide appropriate access for people who are hard of hearing 
and deaf, all videos need to be captioned. Captioning assists foreign 
visitors as well. By captioning the videos, not only will they now be 
accessible to people who are hard of hearing and deaf but also the 
sound of the video can be lowered which will help with the acoustics
    For your reference, to caption a 15-minute video costs 
approximately $600-750. It is, however, important to select a 
captioning company based on accuracy of captioning and not based on 
price alone. Contracts should require that all captioning must be 
spelled 100% correctly and 100% accurately reflect what is stated. It 
might seem obvious but sadly, it isn't.
    Many National Parks show History Channel videos. These videos 
already contain captioning. The company is happy to replace for FREE 
any videos that do not contain captioning.
3. Qualified Interpreters
    Qualified interpretation should be offered upon request with 
reasonable advance notice.
E. Classrooms, Information and Ticket Desk
1. Assistive Listening Devices
    The classrooms, information, audio guide and ticket desk should 
have an induction loop system installed. This allows someone with a 
hearing loss to hear in a class, ask questions, pick-up an audio guide 
and/or purchase tickets.
2. Captioning: Paper
    CART should be available with advance notice if a student requires 
it. A piece of paper and pen should be available at the information, 
audio guide and ticket desk for people to write their questions down 
and/or receive answers to their questions.
3. Qualified Interpreters
    Qualified interpretation should be offered at all parks. All park 
personnel who know sign interpretation should have the ASL symbol on 
their nametag. This identifies appropriate staff that can assist a 
visitor when needed.
F. Special Exhibits
    Exhibits with sound alone e.g. no films are difficult for someone 
with hearing loss. There are no facial cues available for them to 
augment their hearing if they have residual hearing. If a person does 
not have residual hearing, there is no possibility to understand what 
is happening within the exhibit.
1. Assistive Listening Devices
    An induction loop should be utilized.
2. Captioning
    An LED screen or a printed transcript in both regular and large 
print should be available.
3. Qualified Interpreters
    Qualified interpretation should be offered upon reasonable request 
with advance notice.
G. Sound Enhancement Devices
1. Assistive Listening Devices
    All audio devices should be T-coil compatible and volume control. 
We recommend requesting documentation from the company to ensure the 
device is compatible. Any accessible device should post the ear symbol 
with the ``T.'' This symbol can be found on www.hearingloop.org.
2. Captioning
    An LED screen or a printed transcript in both regular and large 
print should be available.
3. Qualified Interpreters
    Qualified interpretation should be offered upon request with 
reasonable advance notice.
H. Boats
    The announcements and emergency drills on boat tours are difficult 
to hear for everyone. Shouting into a bullhorn is not appropriate 
access for people with a hearing loss.
1. Assistive Listening Devices
    To disseminate clearly the information and emergency drills, the 
boat should have an induction loop system.
2. Captioning
    LED displays at various places on the boat or transcripts of the 
announcements and emergency information should be available.
3. Qualified Interpreters
    Qualified interpretation should be offered upon request with 
reasonable advance notice.
I. Audio Phones
1. Assistive Listening Devices
    Anytime there are phone receivers with audio transmitting through 
them, the receivers need to be T-coil compatible. There also needs to 
be prominent signage (Please see www.hearingloop.org) indicating that 
the receivers are usable by individuals with hearing aids and cochlear 
implants equipped with T-coils. If the phones are out of order, there 
needs to be a sign stating they are out of order so the visitor knows 
they are broken and not to expect sound.
2. Captioning
    Transcripts in both regular and large type should be available
3. Qualified Interpreters
    Qualified interpretation should be offered upon request with 
reasonable advance notice.
J. Phone
    There needs to be a TTY phone and a T-coil compatible phone 
available. In addition, all phones should have volume control.
K. Service Animals
    Park staff should understand that service animals are not just for 
the blind but are used by people with other disabilities as well. 
Service animals, however, must be clearly identified in accordance with 
National Park Service regulations.
L. Emergencies
    A system must be in place for emergencies. Both sound amplification 
with low frequencies and visual or tactile alarms must be used. These 
need to be in the buildings as well as on trails and at organized 
campsites. Park personnel should also realize that someone who is hard 
of hearing will not be wearing their aids at night and will not hear 
emergency warnings. Park personnel should request hearing aid users to 
identify themselves voluntarily so they can receive appropriate 
emergency warnings and visual strobes or tactile warnings.
M. Signage, Websites, Brochures and Mailings
    All of the steps I have outlined mean little if visitors are not 
aware of them. Therefore, the appropriate symbols (e.g. assistive 
listening devices, captioning, American Sign Language interpretation) 
and information must be posted at the ticket and audio desks, outside 
the theater and beside any appropriate exhibits. Also, the symbols need 
to be listed in the brochures, mailings, advertisements and on the 
website. Some excellent examples of web sites are:
    http://www.daheshmuseum.org/visit/index.html
    http://www.tenement.org/vizinfo ada.html
    http://www.asiasociety.org/visit/newyork.html
    http://www.frick.org/information/access.htm
    http://www.hillwoodmuseum.org/planningyourvisit.htm#accessibility
    http://www.lincolncenter.org/visitor/
accessibility.asp?session=CF1FB16F-
   41AD-4905-9558-654CABEE7BC0&version=&ws=&bc=2
    http://www.amnh.org/museum/welcome/accessibility/?src=pv vi
    The methodology recommended and is utilized on all of these web 
sites. The access information is located by going to ``Visit Us'' and 
then to the section on ``Access'' or ``Accessibility.'' All of the 
information is then sorted by disability. The symbols should appear on 
the left and the appropriate information on the right. All the parks 
need to have a consistent approach to access and all of the parks must 
be required to provide access information to Washington so that the 
website can be updated. We would be happy to review the information 
prior to posting it on the web.
    For your reference, the following website has all the access 
symbols formatted for easy downloading.
    http://www.gag.org/resources/das.php
    The phrase, ``headset or neck loop are available'' or ``T-coil 
compatible'' should be included under the symbol so that patrons will 
know specifically what type of equipment is available. An alternative 
T-coil compatible symbol is available at www.hearingloop.org.
N. School Trips
    The Education Department should remind schools to bring the FM 
system if available for a child who is hard of hearing. In a pinch, the 
Education Department should be aware that the docent FM system is 
available. Please realize that if the FM system is forgotten, the child 
suffers and is left behind. Also, the Education Department should 
inquire whether a qualified interpreter is needed.
O. Training Program
    An ongoing training program for all museum personnel is needed so 
that everyone is aware of what options are available at NPS. All the 
money spent on access and all the appropriate access is worthless 
unless the staff is appropriately trained and knowledgeable about what 
accommodations are available.
    There also needs to be a 504 Coordinator who is a point person for 
access information and complaints. Access training participation should 
be a mandatory part of an employee's annual review.
    An Access Guide should be available at the information desk. There 
should be a separate page for each type of disability and the type of 
accommodations available at NPS. The 504 Coordinator's contact 
information should be listed on the inside cover.
SUMMARY:
    The mandate of the National Park System is to be accessible to 
everyone. With these proposals and adequate training, the National 
Parks can offer consistent access for visitors who are hard of hearing 
and deaf and allow them to visit the National Parks and experience 
their America.

[GRAPHIC] [TIFF OMITTED] T7519.001

                                 ______
                                 
Chart 2

      Induction Receivers/Neck Loops--Frequently Asked Questions.

What is an induction receiver/neck loop?
    While you may already be familiar with the headset or stethoscope 
type of infrared receiver used at this theater, there is another type 
of receiver that is known as an induction or neck loop receiver. It 
will receive the infrared signal that is transmitted in this theater 
but, unlike the headset type of receiver, cannot be used alone but must 
be used with hearing aids. In addition, the hearing aids MUST be 
equipped with TELEPHONE SWITCHES.
How is this receiver used?
    The receiver is hung around your neck using the attached cord and 
the neck loop is placed over your head. Make sure the plastic lens 
faces outward. Turn your TELEPHONE switches to the ``T'' position; turn 
the induction receiver on using the rotary knob that also serves as the 
volume control. You can also adjust the volume by using the volume 
controls, if present, on your hearing aids.
How do I know if I need an induction receiver?
    While most people with a mild to moderate hearing loss can use the 
standard headset receivers, those individuals with a more extensive 
hearing loss, that is, severe to profound, may find it advantageous to 
use an induction receiver. The induction receiver can provide a number 
of advantages over the standard headset receiver that are:
    1)  You do not have to remove your hearing aids but merely switch 
them to the ``T'' position in order to use the induction type receiver.
    2)  You can most likely get higher volume, if needed than with the 
headset.
    3)  If you are using the headset receiver and find it necessary to 
turn up the volume to the maximum or near maximum level, you may be 
inadvertently disturbing audience members sitting next to or close to 
you because some of the sound from your headset can leak out causing an 
unpleasant echo.
    Again, in order to use an induction or neck loop receiver, your 
hearing aids MUST HAVE TELEPHONE SWITCHES
What exactly is a telephone switch ``T'' (also known as a telephone 
        coil)?
    A telephone switch enables a hearing aid user to pick up the signal 
coming from the earpiece of a telephone handset be means of a small 
coil of wire which is sensitive to the magnetic field being emitted 
from the telephone earpiece. This will make it easier for many (but not 
necessarily all) hearing aid users to use the telephone. It turns out 
that this technology, although originally developed for telephone use, 
has other applications and can be used to enable a hearing aid to 
directly pick up other signals such as those emitted by an infrared 
induction receiver.
How do I know if I have a telephone switch?
    On some hearing aids, there may be a switch labeled O-T-M or M-T. 
On other hearing aids, there may be a switch with other labeling or no 
labeling at all. On some newer hearing aids, there may be no visual 
indication that the telephone switch is present--it may be activated by 
pressing in on the aid in a certain spot or remote control or by just 
holding a telephone over the hearing aid. In general, the smallest 
types of hearing aids such as the CIC (completely in the canal) do not 
have telephone switches. If you are not sure whether or not your 
hearing aids have a telephone switch, you can check with your 
audiologist or hearing aid specialist.
League for the Hard of Hearing, 5/13/2003
                                 ______
                                 
Chart 3

           Technical Support for Assistive Listening Systems

    The assistive listening device (``ALD'') distributors need to be 
trained to test the equipment before it is given to the patron. 
According to Josh Gendel, Director of Technology at The League for the 
Hard of Hearing, two inexpensive pieces of equipment from Radio Shack 
are needed. They are the Radio Shack Mini-Audio Amplifier #277-1008 for 
approximately $11.99 and the Telephone Bug #44-533 for approximately 
$3.99. Placing the Bug next to the neck loop can quickly test the neck 
loop. Any sound the neck loop receives will be heard through the Mini-
Audio Amplifier.
    Not only is it important to ensure that the equipment is working 
but it is also important to confirm that the equipment is working in 
the attendee's seat prior to the start of the show. On many occasions, 
my daughter heard only static through her neck loop. This meant the 
signal wasn't strong enough and either there were not enough infrared 
emitters or the emitter was moved during a performance. None of which 
could easily be remedied. The only solution was to change seats. 
Unfortunately, on these occasions, it was too late to change seats 
since we did not realize this problem until after the event began. This 
problem could have been avoided if the theater had a pre-show sound 
test.
    The pre-show sound test is accomplished by having a CD/tape playing 
prior to the start of the show but run only through the assistive 
listening system. The audience cannot hear the sound unless they are 
wearing the ALD. By having the sound on while patrons are arriving, 
anyone whose seat is not receiving the signal or whose neck loop/
headset is not working would be able to make appropriate arrangements 
prior to the start of the event. This alleviates disturbances during 
the event. In the end, the customer is satisfied rather than 
disappointed.
    A sound loop explaining the ALD should be developed. This can be 
done on either a CD or on MP3 player that would cost approximately 
$300. This system is currently implemented at Disney World, most 
Broadway theaters and at Avery Fischer Hall.
                                 ______
                                 
    Mr. Pearce. Thank you very much.
    Mr. McCarthy.

STATEMENT OF JAMES McCARTHY, DIRECTOR OF GOVERNMENTAL AFFAIRS, 
     NATIONAL FEDERATION OF THE BLIND, BALTIMORE, MARYLAND

    Mr. McCarthy. Mr. Chairman, thank you for inviting me to 
share the views of the National Federation of the Blind on 
access to the parks of the United States.
    The National Federation of the Blind is this nation's 
largest organization composed of blind people. I will summarize 
my remarks, and I want it understood that when I speak in terms 
of access, I am only speaking about access from the point of 
view of individuals who are blind.
    Blind people do not want special changes to the built or 
natural environment designed for our personal benefit. We don't 
tend to want these changes because generally they are done in 
such a manner by individuals who do not actually know the 
capacities of blind people, and they don't ultimately therefore 
meet our needs.
    Another kind of follow-up or corollary to this is that park 
officials should not, but in very rare circumstances, deny 
admission to parks or to places, areas within parks based on 
their perception of safety. In addition, they should not 
condition admission of blind people based on the same concerns. 
The ADA was very concerned about this because most people where 
safety is at issue the perception of most of the general public 
again is that people with disabilities, blind people 
specifically here need special concerns where safety is 
concerned.
    When considering access as a blind person, blind people 
generally think of access, what people today have referred to 
as programmatic access, but basically access to information is 
of critical importance to us. Most information is presented in 
a visual format, in print, et cetera, and that probably is the 
greatest barrier that blind people face in our daily lives.
    Therefore, if we can access information in national parks, 
our experience will thus be pleasant and generally positive.
    One way this can be accomplished, many blind people now 
access information via the internet, and those numbers will 
continue to increase over time. Many elderly citizens probably 
don't lack that access now, but that is one way where people 
can gather information about parks before visiting.
    The 508 standards are a very good starting place to make 
this information accessible, and the National Park Service 
should require that private vendors which it contracts with 
that make information available to the public comply with the 
508 standards. I understand that 508 doesn't apply to private 
entities, but it certainly could be written in the contracts if 
the Park Service wished to do so, and by doing that access 
would be improved for blind people.
    Signage is an interesting access issue for people who are 
blind. In our great parks out West and other outdoor 
environments, it is probably not practical, unfortunately, to 
provide Braille signage, and therefore shouldn't be a 
requirement. The reason is there really aren't any conventions 
as to where one would locate signage so that the people 
intended to benefit probably would not because they wouldn't be 
able to find the signs easily when doing work on trails.
    Now, internal signage, signage in buildings is certainly a 
different matter, and access, I think, would require signage in 
Braille whenever that is possible. And for outdoor signage, 
information technology probably in the not distant future, 
there are several technologies that should make signage 
accessible to blind park visitors.
    Many blind people miss out, people who are blind miss out 
on a lot of--have experience deficits because of not being able 
to see objects, and obviously the reason you visit parks is 
because of the treasures, or one critical reason is the 
treasures they maintain. Therefore, when it is possible there 
should be a presumption that artifacts contained in parks are 
available to touch. Obviously, I understand that that isn't 
always going to be the case, and in such places there should be 
efforts to offer models, replicas of those objects so that we 
can derive the benefit that other people do, and enhance our 
knowledge of the great country that live in, which is, as I 
say, one of the reasons we visit.
    I think the final point that I would make about access, 
access is important largely, I think, because it offers 
integration to people with disability, and there is a law known 
as the Randolph Sheppard Act that permits blind people to 
operate and sell commodities on Federal property. Opportunities 
under this law have been declining steadily over recent years, 
and the Park Service has not tended to be open to these 
opportunities for blind operators.
    Greater openness to this program would certainly be a great 
benefit. People who are blind find this program the most 
positive program for employment of blind people, and it would 
also create an opportunity where park employees would become 
accustomed to seeing blind people doing work on a daily basis, 
and that is one of the values we find in the program.
    I appreciate the opportunity to comment, and thank you very 
much.
    [The prepared statement of Mr. McCarthy follows:]

    Statement of James D. McCarthy, Director of Government Affairs, 
                  The National Federation of the Blind

    Chairman Pearce and members of the subcommittee:
    My name is Jim McCarthy and I am pleased to have the opportunity to 
comment on behalf of the National Federation of the Blind (NFB). I am 
the director of Governmental Affairs for the NFB. My address is 1800 
Johnson Street, Baltimore Maryland 21230. My phone is (410) 659-9314 
extension 2240 and my email is <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bcd6d1dfdfddcec8d4c5fcd2dade92d3cedb92">[email&#160;protected]</a>
    The National Federation of the blind is this nation's largest 
organization of blind people. The vast majority of our members are 
blind as are all of our leaders. We often point out that, of, the 
smallest word in our name is the most important because it indicates 
that decisions made by our organization are decisions made by blind 
people. Therefore, we are ``the voice of the nation's blind.''
    I want it clearly understood that my comments are only meant to be 
the views of blind people, not of the broader disability community. I 
live every day with blindness, but do not have a perspective that 
permits me to speak to the access needs of all individuals with 
disabilities. Other witnesses on this panel will be comfortable 
speaking for the broader community, but they should not be understood 
to speak for the blind.
    Accessibility as applied to the National Park system should be a 
concept that is applicable to the vast array of differing installations 
within its domain. Unfortunately, this may be easier said than actually 
accomplished. I will suggest broad principles to make installations 
within the system accessible to blind people with some more specific 
recommendations that apply to particular kinds of sites.
    Blind people do not generally require significant physical 
modification to either the built or natural environment. Many of the 
sites within the system have been included because of their natural 
importance like the great parks out west. We do not believe that 
special changes to their environments should be contemplated because 
these are thought to offer us access.
    People who venture in to these natural parks should expect certain 
challenges, which is probably why most of them visit. Trails should 
remain in their natural state or in the state that park officials 
determine is safe for their use. The perceived needs of blind people 
should never be a part of such determinations. This is so because in 
the experience of the NFB, when our needs are considered, most 
individuals not familiar with what the blind can or cannot do, vastly 
under estimate our abilities.
    To expand a bit on this idea, park officials must avoid (but in the 
rarest of circumstances) denying blind people admission to parks 
because of their concerns for our safety. I understand that ``direct 
threat'' is a defense to a claim of discrimination under the Americans 
with Disabilities Act, but it should be construed most narrowly. 
Conditions should not be placed on admission of blind people to parks 
for the same reasons. The assumption must always be that if a blind 
person wants to visit a particular park, the person fully understands 
the risk being taken and wants to visit anyway.
    When blind people think of access, we generally are referring to 
information much more than to physical ability to enter or travel 
within a place. Though blindness would not stop me from scaling the 
wall of this room, I doubt that I am able to climb to its ceiling 
unaided. On the other hand there may be text on its walls and printed 
material distributed here and blindness assures that I have no access 
to either.
    Blind people miss information that the rest of society receives 
which may be our greatest barrier. Braille is the method of reading and 
writing that is most efficient for blind people and even the room 
numbers of this building and its elevators now have Braille. However, I 
think Braille signage on trails in the natural parks is probably not a 
practical solution.
    To those familiar with the views of the NFB and the esteem we have 
for Braille as a medium for the blind to use for reading and writing, 
stating that Braille signs are not practical would seem to contradict 
all that we hold dear. However, though the information that could be 
placed on Braille signs would be extremely useful, most of the signs 
would go unnoticed by the precise people they were intended to help. 
This is so because I cannot think of any standard for their placement 
where blind people could regularly find them when desired.
    Technology may soon offer a suitable solution. Today there are 
devices known as talking signs that use infrared technology, a receiver 
held by a blind person and transmitters that provide information spoken 
through the receivers if they are pointed at the transmitters. It also 
seems likely that RFID tags will offer promise as a means of conveying 
information contained on signs to blind trail visitors.
    For buildings in National Parks, Braille signage is critical to 
enhance access for blind visitors. As has become common, room numbers, 
rest rooms elevators and the like should have Braille signage because 
there are well-established standards for their placement. Braille 
signage should also be affixed to displays when print signage is 
offered.
    The inability to see objects can create experience deficits for 
blind people, but this can be readily addressed. Parks should permit 
blind visitors to touch their holdings whenever possible. At our 
conventions, the NFB regularly has what we call a sensory safari where 
taxidermy animals found in the wild are made available to touch and 
this is always very well received. I realize that contact with live 
animals in natural settings or with delicate artifacts cannot always be 
offered, but in such cases, to scale replicas would certainly suffice.
    Finally, for blind and disabled people, access is significant 
because it makes integration possible. Therefore, I would propose that 
the National Parks Service work with blind people to develop 
opportunities under the Randolph-Sheppard Act to offer products to park 
visitors. The Randolph-Sheppard program is the most successful program 
for the employment of blind people, but the numbers of opportunities 
are on a steady decline and the national parks have largely been 
unwilling to permit blind business people to operate under this program 
within the parks of this nation.
    In conclusion, if success can be claimed for the Americans with 
Disabilities Act, it is most evident in society's greater expectation 
that Americans with disabilities will participate in the full range of 
activities available. Its emphasis on access for individuals with 
disabilities makes integration possible. However, though access may be 
important for all individuals with disabilities, a one-size fits all 
access solution will not work, and should be assiduously avoided.
                                 ______
                                 
    Mr. Pearce. Thank you, Mr. McCarthy.
    Ms. Starnes.

STATEMENT OF NANCY STARNES, VICE PRESIDENT AND CHIEF OF STAFF, 
     NATIONAL ORGANIZATION ON DISABILITY, WASHINGTON, D.C.

    Ms. Starnes. Chairman Pearce and Members of the 
Subcommittee, we appreciate the opportunity to come and share 
with you. I echo the sentiments of my co-presenters here.
    My name is Nancy Starnes. I am the Vice President and Chief 
of Staff of the National Organization on Disability. As a 
person who is used to wheelchair for more than 33 years, I have 
both a personal and a professional interest in the topic of 
today's hearing.
    N.O.D. is a nonpartisan, nonprofit disability organization 
founded in 1982 as a outgrowth of the UN's International Year 
of Disabled Persons. We are a national organization whose 
mission is to promote the participation of all people with 
disabilities, men, women and children at all aspects of 
community life.
    Over the course of the past 18 years, NOD has commissioned 
a number of Harris interactive surveys to measure the quality 
of life of people with disabilities in a wide range of critical 
dimensions, to document the participation gaps between people 
with disabilities and those without disabilities, and to 
develop trend lines to measure the progress in eliminating 
those participation gaps.
    The significant indicators include employment income, 
education, health care, access to transportation, socializing, 
going to restaurants, attendance at religious services, 
political participation, and life satisfaction
    The data from the survey suggests that some progress is 
being made but we all know that there is a lot more that 
remains to be done, and people with disabilities still remain 
at a disadvantage in most of these areas.
    Two of the statistics from the 2004 NOD Harris survey of 
Americans with disabilities bear some relevance to today's 
hearing. One is socializing. The statistical gap between those 
with and without disabilities is 10 percentage points. The gap 
has increased slightly since 1994, and we know that the 
national parks provide opportunities for people with 
disabilities to interact with a wide range of individuals in a 
natural setting that offers both physical challenges and 
rewards individual's perseverance. Vacation memories of a 
national park experience can be the source of inspiration for a 
lifetime.
    And transportation, 30 percent of people with disabilities 
are much more likely to experience inadequate transportation 
than are their non-disabled counterparts. Even as many of the 
physical barriers to national parks and other places have 
become less burdensome or disappeared all together, 
transportation remains the key to being able to take full 
advantage of the opportunities and advances afforded to people 
with disabilities.
    On January 25, 1999, the National Organization on 
Disability entered into a partnership agreement with the U.S. 
Department of Interior, National Park Service, to conduct a 
fund raising campaign for art work at the Franklin Delano 
Roosevelt Memorial that would provide recognition of President 
Roosevelt's leadership while in a wheelchair.
    N.O.D.'s five-year ``Rendezvous With Destiny Campaign'' 
inspired both large- and small-scale donors from across the 
country to raise $1.65 million in private funds to add to the 
statute of FDR in his wheelchair that now adorns the prologue 
to the FDR Memorial here in Washington, D.C.
    The first donation was $378.50 personally raised by 
children of Lindberg Elementary School in Palisades Park, New 
Jersey, and delivered to NOD's founder and then President Allen 
A. Rike. The Rendezvous With Destiny Campaign culminated in a 
dedication ceremony for the statute at which President Clinton 
said, ``This is a monument to freedom--the power of every man 
and woman to transcend circumstance, to laugh in the face of 
fate, to make the most of what God has given.''
    The FDR Memorial is just one of the many stars in our 
National Park Service System that calls visitors, including 
those with disabilities, to remember and celebrate the life, 
dignity, and freedom that our American way of life represents.
    We at NOD hear from time to time that people with 
disabilities are not able to access that park system. From the 
first designation of the park system at Yellowstone to the most 
recent designation of Great Sand Dunes, the incorporation of 
accessibility features into parks, monuments, trails, and 
historic sites has encouraged visits by more and more people. 
With each generation since Yellowstone was designated as a 
national park, people with disabilities have grown in their 
expectation that these wonderful national treasures would be 
accessible to them.
    Today, these sites offer recreation and education 
opportunities for people of all ages and all abilities. Through 
a free and universal design concepts applied to facilities, 
trails and historic parks in our National Park System ensure 
the broadest use by people with disabilities, whether they are 
visiting unaccompanied or whether they draw additional people 
to the park settings through visitors who are family members, 
friends, or professional caregivers.
    ``People with wheelchairs are somewhat an indicator of the 
species. If you provide for them, you will accommodate a lot of 
other park users'' said landscape architect Mike Brown at a 
1992 Statewide Trails Conference. He continued, ``All of us 
have been or will be at some time dependent on others, needing 
help to get around. So barrier-free design helps all of us.''
    The National Park System has been recognized 10 times for 
its accessible features but we know that a lot more can be done 
to address the barriers as you have heard here today. As an 
example, one individual reported to NOD that he could not 
access some national parks because of a rule barring motorized 
vehicles from passing beyond the parking area. He happened to 
be a wheelchair user, and he needed his car to be able to drive 
into the interior sites.
    The increasing use of Segways, as you have heard, by 
individuals with mobility impairments raises additional issues 
regarding restrictions of wheel vehicles in national park 
sites.
    Other areas for improvement include providing printed 
information in alternate formats, whether that be large print, 
Braille or audio cassette. Braille was actually used at the FDR 
Memorial as a visual component of the site, but we believe it 
wasn't accurately produced there, and may send an unintended 
message to those who are blind.
    In addition, we have heard of issues reported in research--
that are consistent with research conducted in 2001 by the 
University of Tennessee for the National Center of 
Accessibility regarding national parks. Some of the issues that 
continue to be raised are: insufficient accessible parking; 
lack of accessible restroom facilities; lack of access to 
utilities and drinking water; lack of access to storage, trash 
and recycling areas; lack of accessible trails, overlooks and 
viewing areas; lack of accessible camping facilities; lack of 
access to the visitors center; and lack of access of curb cuts.
    N.O.D.'s Accessible American Competition encourages local 
government of any size to enter their best practices ideas that 
promote the participation of people with disabilities in their 
city, town, or county. Many of the 150 entrants who have vied 
for the designation as American's most ``disability-friendly 
community'' had proudly lifted up the important role that their 
parks and recreation programs play in integrating people with 
disabilities into community life. We at the National 
Organization on Disability believe that our National Park 
System should do no less.
    Thank you, on behalf of the National Organization on 
Disability, for the invitation to appear before you today. We 
applaud the dedicated individuals who are elected, appointed, 
or employed to bring the national park experience to everyone 
and we are ready to work with them to address instances where 
people with disabilities continue to face barriers to the park 
system.
    I welcome the opportunity to answer any questions you might 
have.
    [The prepared statement of Ms. Starnes follows:]

     Statement of Nancy Starnes, Vice President & Chief of Staff, 
                  National Organization on Disability

    Chairman Pearce, Ranking Member Christensen and distinguished 
Members of the Subcommittee on National Parks, thank you for conducting 
an oversight hearing on disability access in the National Park System 
and providing the National Organization on Disability (N.O.D.) with an 
opportunity to comment on this important topic. My name is Nancy 
Starnes and I am Vice President and Chief of Staff for the National 
Organization on Disability. As a person who has used a wheelchair for 
33 years, I have both a personal and professional interest in the 
subject of today's hearings.
    N.O.D. is a non-partisan, non-profit disability organization 
founded in 1982 as an outgrowth of the United Nations International 
Year of Disabled Persons. N.O.D. is a national organization whose 
mission is to promote the participation of America's 54 million men, 
women and children with disabilities in all aspects of community life.
    Over the course of the past 18 years, N.O.D. has commissioned a 
number of Harris Interactive Surveys to measure the quality of life of 
people with disabilities on a wide range of critical dimensions, to 
document the participation gaps between people with and without 
disabilities and to develop trend lines over time to measure progress 
in eliminating those gaps. The significant indicators include: 
employment, income, education, health care, access to transportation, 
socializing, going to restaurants, attendance at religious services, 
political participation and life satisfaction. The data from the 
surveys suggest that some progress is being made, but that people with 
disabilities still remain at a disadvantage in most of these areas.
    Two of the statistics from the 2004 N.O.D./Harris Survey of 
Americans with Disabilities bear particular relevance to today's 
hearing:
    <bullet>  Socializing: The statistical gap between those with and 
those without disabilities is 10 percentage points. This gap has 
increased slightly since 1994. National Parks provide opportunities for 
people with disabilities to interact with a wide range of individuals 
in a natural setting that offers physical challenges and rewards 
perseverance. Vacation memories from a National Park Service experience 
can be the source inspiration for a lifetime.
    <bullet>  Transportation: Thirty percent of people with 
disabilities are much more likely to experience inadequate 
transportation than are their non-disabled counterparts. Even as many 
of the physical barriers to National Parks and other public places have 
become less burdensome or disappeared altogether, transportation 
remains the key to being able to take full advantage of the 
opportunities the advances afford people with disabilities.
    On January 25,1999, the National Organization on Disability entered 
into a partnership agreement with the U.S. Department of the Interior, 
National Park Service to conduct a fund raising campaign for artwork at 
the Franklin Delano Roosevelt Memorial that would provide recognition 
of President Roosevelt's leadership while in a wheelchair. N.O.D.'s 
five year ``Rendezvous with Destiny Campaign'' inspired large- and 
small-scale donors from across the country to raise $1.65 million in 
private funds to add the statue of FDR in his wheelchair that now 
adorns the prologue to the FDR Memorial in Washington, DC. The first 
donation of $378.50 was personally raised by children of Lindbergh 
Elementary School in Palisades Park, New Jersey and delivered to 
N.O.D.'s Founder and then president, Alan A. Reich. The ``Rendezvous 
with Destiny Campaign'' culminated in a dedication ceremony for the 
statue at which President Clinton said, ``This is a monument to 
freedom--the power of every man and woman to transcend circumstance, to 
laugh in the face of fate, to make the most of what God has given.'' 
The FDR Memorial is just one of the many stars in our National Park 
System that calls visitors, including those with disabilities, to 
remember and celebrate the life, dignity and freedom that of our 
American way of life represents.
    We at N.O.D. hear from time to time that people with disabilities 
are facing barriers to access in the National Park System. From the 
first designation by the National Park System of Yellowstone in 1782 to 
the most recent designation, Great Sand Dunes in 2000, the 
incorporation of accessibility features into parks, monuments, trails 
and historic sites has encouraged visits by more and more people. With 
each generation since Yellowstone was designated as a National Park, 
people with disabilities have grown in their expectation that these 
wonderful national treasures would be accessible to them. Today, these 
sites offer recreation and education opportunities for people of all 
ages and all abilities.
    ``Barrier-free'' and ``universal design'' concepts applied to 
facilities, trails and historic sites in our National Park System 
ensure the broadest use by people with disabilities whether they are 
visiting unaccompanied or with additional visitors who provide support 
as family, friends or professional caregivers.
    ``People with wheelchairs are somewhat an indicator of the 
species--if you provide for them, you accommodate a lot of other park 
users,'' said landscape architect Mike Brown at a 1992 Statewide Trails 
Conference. He continued, ``All of us have been or will be at some time 
dependent on others, needing help to get around. So barrier-free design 
helps all of us.''
    The National Park System has been recognized 10 times for its 
accessible features but more can be done to address the barriers some 
people with disabilities face. As an example, one individual reported 
to N.O.D. that he could not access some National Parks because of a 
rule barring motorized vehicles from passing beyond the parking area. 
He was not able to use his wheelchair to reach the interior site some 
distance from the parking area and had to rely on his van to get to his 
destination. The increasing use of Segways by individuals with mobility 
impairments raises additional issues regarding restrictions of wheeled 
vehicles in National Park sites. Other areas for improvement include 
providing printed information in alternate formats, i.e. large print, 
Braille and audio cassette. Braille was used at the FDR Memorial as a 
visual component of the site but was not accurately produced, and may 
send an unintended message to those who are blind.
    In addition, research conducted in 2001 by the University of 
Tennessee for the National Center on Accessibility regarding National 
Parks revealed the following areas of concern for visitors with 
disabilities:
    <bullet>  Lack of sufficient accessible parking
    <bullet>  Lack of accessible restroom facilities
    <bullet>  Lack of access to utilities and drinking water
    <bullet>  Lack of access to storage, trash and recycling areas
    <bullet>  Lack of accessible to trails, overlooks and viewing areas
    <bullet>  Lack of accessible camping facilities
    <bullet>  Lack of access to the Visitors Center
    <bullet>  Lack of curb cuts
    N.O.D.'s Accessible America Competition encourages local government 
of any size to enter their best practices ideas that promote the 
participation of people with disabilities in their city, town or 
county. Many of the 150 entrants who have vied for the designation as 
America's most ``disability-friendly community'' have proudly pointed 
to the important role that their parks and recreation programs play in 
integrating people with disabilities into community life. We at the 
National Organization on Disability believe that our National Park 
System should do the same thing.
    Thank you, on behalf of the National Organization on Disability, 
for the invitation to appear before you today. We applaud the dedicated 
individuals who are elected, appointed or employed to bring the 
National Park experience to everyone and are ready to work with them to 
address instances where people with disabilities face barriers to the 
Park System. I welcome the opportunity to answer any questions you 
might have.

[GRAPHIC] [TIFF OMITTED] T7519.002

                                 ______
                                 
    Mr. Pearce. Well, thank you. I hear at west Texas speed, 
which is about 20 miles per hour slower than you speak, so part 
of your testimony will still be playing its way through my 
cassette tape player. In about 20 minutes, I will finally hear 
the end of your statement.
    Ms. Starnes. I am a Dallas girl.
    Mr. Pearce. I appreciate that. We are in good shape.
    Ms. Masica, why don't you go ahead and bring your chair up 
to the table, and let us start kind of a discussion. If you 
have other people there who will help answer, deflect or 
whatever, you are welcome to bring them up.
    Let me tell you something before we start, Ms. Masica, and 
all of you, and including Mr. Robb and Mr. Harding. Is Mr. 
Harding still here? Yes, OK.
    I am going to submit a letter to the Director and Ms. 
Masica, and I am going to ask each of you to, as we are going 
along, contribute the two things that you think are most 
essential, so we are going to let you throw out your two bullet 
points for the letter here at the end of the hearing. We will 
ask Ms. Mainella to personally answer in written form what the 
Park Service hopes to do in the next year and then the next 10 
years with regard to the 12 points that we will bring up. So I 
think that would be a suitable outcome for the day.
    I have already raised one question to you, Ms. Masica, if 
you remember what that discussion might be, then why don't you 
start there, and then we will proceed from that point.
    We are going to have to pass microphones back and forth out 
here, so if everybody will kind of spread them out, and be a 
little more accessible.
    Ms. Masica. Mr. Chairman, we were talking about the Segways 
before you had to leave to go vote, and I think that----
    Mr. Pearce. And the Segway in the broader sense if they are 
being used by agencies to hold down the visitation. We can 
agree or disagree with the idea that visitation should be up or 
down. That is a separate deal.
    But if that were the policy, you see how it would affect 
one community more than all the other combined, and so it is 
cutting us down to a very, very key point right here.
    Ms. Masica. Yes.
    Mr. Pearce. Why don't you address that.
    Ms. Masica. Sure, to the best of my ability, I will try to 
do that.
    I don't believe there is anybody in the Park Service who 
intentionally would view having a discussing about the 
appropriate use of Segways as being driven by a desire to 
dampen visitation or to reduce visitation. I think that it is a 
new technology that the Park Service has not fully grappled 
with yet, and certainly the issue of Segways being available 
for mobility assistance is one that we are definitely trying to 
encourage superintendents to look at, to make a decision on a 
case-by-case basis where it is practical, and wherever it is 
feasible to do so, to allow them to be used for mobility 
assistance for persons with disabilities to get into a national 
park.
    I think there are a lot of places around the Park Service 
where that ought to be feasible and doable, and if we find 
people who are not doing that, I think that become a challenge 
for myself as part of the management team that we need to get 
on to deal with those.
    But I think we are trying to make sure that each park 
superintendent is more aware of this issue. You mentioned 
earlier about this hearing providing a forum for which we 
heighten awareness, and I think it very much will contribute to 
that.
    Mr. Pearce. How about the broader aspect of it that was 
brought up by Ms. Starnes there that someone was not able to 
get their van in closer than the parking lot, again the rule 
being interpreted so strictly?
    Ms. Masica. Yes. I don't know the specifics of that so I 
would need to look into that.
    Mr. Pearce. I understand it is just conceptual----
    Ms. Masica. Yes, I mean----
    Mr. Pearce.--same problem.
    Ms. Masica. I think conceptually that the issue of 
providing as much access as we can, and where it is needed for 
disability access, if it doesn't have a negative impact on park 
resources, we ought to be allowing that and encouraging that.
    Mr. Pearce. In a group with all 390-something 
superintendents, would you have superintendents in the room who 
would bristle at the suggestion that maybe they should consider 
letting Segways in, or vans get in closer?
    Ms. Masica. Probably. I would like to think that it would 
be far fewer in the room than it might have been 10 years ago, 
but I am not going to sit here and suggest that everybody is as 
far as long as we need them to be.
    Mr. Pearce. As long as the system is recognized. I mean, 
that is a very key thing. Sometimes it is very difficult to go 
all the way to be honest, but we should all be straightforward. 
I agree with the comment earlier that there are people in the 
system, even in the park system, but I think more in the Forest 
Service who really do think access should be limited, and they 
don't really care exactly how they limit it. They can do it 
through just the stroke of a pen and limit access to Segways 
and keep out a whole group, and numbers, and I am thinking 
numbers. I don't think they should drive to limit people with 
disabilities. So it is the number overall, and this would be a 
good, nice big class to take members out.
    I think there are people that I have visited with in the 
system--again more in the Forest Service system I think. So 
those are conversations that the Park Service, I think, should 
be engaged in.
    Well, I really appreciate Mr. McCarthy's testimony, and Ms. 
Schacter there. They are kind of pushing the technology 
envelope. So if we are having trouble with the system 
recognizing Segways, what kind of trouble is the system going 
to have to convert over to infrared RFID systems, radio 
frequency ID, just a little tag that emits a signal? What kind 
of problems are we going to have getting the system to reach 
out and embrace those different concepts?
    Ms. Masica. You know, I think that one of the services that 
we can help superintendents with, and from things like the 
Harpers Ferry Center where they do a lot of our interpretative 
programming is understanding the technology so that 
superintendents don't have to do that on their own, and that 
there is sort of a well-founded basis for having evaluated the 
technology, and looked at for its applicability and where 
things can be deployed.
    But I think that somebody else also pointed out that money 
is not an excuse, and I absolutely agree with that. I think it 
is providing accessibility is a part of how we do business, and 
we have, I think, ingrained that a fair amount, and need to 
continue to work.
    We were talking during the break internally about some 
upcoming training of superintendents for example, and how to 
make sure that this topic is part of that conversation, and I 
think it is that continual learning is what we are going to 
have to do to help educate people, and open and expand their 
horizons.
    Mr. Pearce. At a previous hearing, we pulled the Park 
Service together with specialists in the tourism industry, and 
I mean, it was just a stunning thing. What are the chances that 
the park system would actually use these five, six people as 
kind of a go-to board for the next year to help it think? Mr. 
McCarthy points out adequately. Ms. Schacter pointed out 
adequately that you have people making decisions about stuff 
they really don't know much about. Frankly, I wouldn't know 
much about it.
    But I felt like the presentations here today have been 
pretty factual, pretty straightforward. They haven't been 
overly antagonistic, and it just seems like there could be good 
connections here.
    I am going to let you ponder that with them, and answer it 
on the next time through, or you don't even have to really, but 
I would like you to consider it.
    I will turn to Ms. Christensen for questions now.
    Ms. Christensen. Thank you. I apologize for not getting 
back sooner, but we are also dealing with Medicare Part D and 
the deadline that is coming up, and I had to do something on 
that.
    If the question has been answered about the new facilities 
that are coming on line not being built to accommodate persons 
with disabilities, was that question already answered, because 
I understand that as facilities are being built today, they are 
not ADA compliant? Is that already answered?
    Ms. Masica. Well, we talked about it, Ms. Christensen. I 
think that there are--our construction dollars are used for a 
combination of both new construction and rehabilitation of 
existing facilities so we are looking at maximizing our 
accessibility and meeting the requirements for both types of 
construction, not just the new but also the rehabilitation.
    Ms. Christensen. OK, but going forward from here as we 
construct new facilities, they will be accessible?
    Ms. Masica. That is certainly the expectation that we put 
out, and certainly put into our contracts. Some concerns have 
been raised about the oversight of those contracts, and how we 
are managing those, and I think that those are the kind of 
things that we need to continue to be attentive to.
    Ms. Christensen. Ms. Schacter.
    Ms. Schacter. My concern is that, again, it is more the 
mobility issues, and we need to look at hearing access. I can 
only speak as to my family. We visited in Dayton, Ohio, the 
Orville Wright and Wilbur Wright Museum, and it is a completely 
new facility. The people were lovely, but there were films that 
were not captioned. There were videos without assistive 
listening devices, and it has to be in the contracts, that 
there is basically a three-prong approach for any time there is 
audio there needs to be assistive listening devices, have sets 
on neck loops, captioning, and qualified interpretation every 
single time there is an audio output.
    Unfortunately, it was not there, and that was a new 
facility. And so what concerns me, you know, we only have so 
many weeks vacation, I don't know what is going on in the rest 
of the country, and I can tell you out of six parks that we 
recently were there was nothing--there was nothing there for my 
daughter, and that is ridiculous, and I am not looking to point 
fingers. I am trying to figure out how can we find this.
    Ms. Christensen. Right, and I think we have to deal with 
more than just mobility issues, and I am glad to keep our 
vision, that you are helping to keep our vision broader and 
where it needs to be.
    Where there are opportunities for outdoor recreation within 
our park system, can anyone tell me how would you rate the 
communication of those opportunities by the Park Service? 
Anyone can answer. Yes.
    Ms. Schacter. Well, as I mentioned, it started when we came 
back from a trip to Puerto Rico, and the film was in Spanish 
and English, but there was no caption version in either 
language, and from that I have to say I started contacting the 
Park Service, and I was able to get all the way through, and 
they have had some very senior meetings, but it has to--there 
is this disconnect. What seems to be happening that--you know, 
I can't go around, you know, when Chairman Pearce talked about 
being the sheriff, I feel like I am the sheriff. I go to a park 
and literally as we leave the park I e-mail a 504 complaint on 
my Blackberry saying problem, complaint, and they watch me as I 
travel through the--you know, through Ohio, down to Kentucky, 
down to Tennessee, each of the complaints. I mean, it is 
ridiculous.
    And this is the only way I am able to force the issue of 
accessibility, and that seems ridiculous, but I was told from 
various people that they can't raise the priority of it. So 
while the people are lovely, occasionally we have gotten some 
issues. I will say at Gettysburg we had a very disturbing 
instance where the superintendent of the park knew the system 
was broken, and could care less, and frankly, just was not 
interested.
    At Ellis Island when I e-mailed them to find out what type 
of access they had, I got a very flip e-mail back saying we 
have some--I don't know what she said, but she is like it is 
five o'clock, got to go, and I could never find information 
out, and it took me calling and calling.
    So there is not a communication, and if you look at the 
website, I mean, literally some of the pages are blank when you 
look in the access section, and in some pages only have 
mobility access. They don't use the ADA symbols, which is 
required, and I can't figure out why not just put all the ADA 
symbols on the left, corresponding paragraph on the right, and 
force the superintendents to answer those surveys of what they 
have. Sometimes they actually have the stuff, but they just 
don't want to tell anyone.
    So I mean, the lack of communication and the disconnects is 
really problematic.
    Mr. Pearce. Mr. McCarthy, you wanted to answer?
    Mr. McCarthy. Yes, to follow up a little bit.
    I think one of the towns I think--I have to confess I don't 
get many complaints. I am actually sort of changing the 
subject, but I think it comes back to where you are going. I 
don't get many complaints for workers, blind workers at the 
parks, but the biggest reason I think that I don't is because 
there aren't very much workers with disabilities at the parks, 
so most of the park people don't really have any sense of 
disability focus, and it truly is anecdotal.
    But the complaints I get are some of the most serious 
accommodations complaints that I get from anybody in the 
Federal government of real kind of aggressive anti-
accommodation. So I think that culturally there is an 
unfortunate culture in the National Park and National Forest 
System that kind of says, you know, people with disabilities, 
whatever they are, may not be the expected customers or 
employees, et cetera, of these facilities, and that is part of 
the problem.
    I think there is a corollary which Ms. Schacter sort of 
suggested, but a corollary to Chairman Pearce's concern about a 
class of people being left out, and that corollary is that I 
think that people with disabilities and the needs of people 
with disabilities are not the most significant or even among 
the significant priorities of the Park Service in its day-to-
day activities; that they are probably fairly low.
    So I do think progress is being made and appreciate the 
opportunities to discuss this, but I think that is still one 
of--you know, if a piece of equipment is broken, there is not a 
real strong desire to fix it kind of thing.
    Mr. Pearce. Yes, Ms. Schacter.
    Ms. Schacter. I think one of the other things I just want 
to point out, and why I have a sense of urgency and while I do 
things are progressing, one of the areas that I represent is 
children, and what is critical is when a child goes on a school 
trip and they go with a class, and there is not appropriate 
access, and then the child can't hear what is being said or 
can't visit the site appropriately, they now come back to the 
class. They are tested on that information. The child falls 
behind, and if we are very committed to no child left behind, 
then we have to really ensure that the child has a successful 
school trip.
    Also, in a child's life, every year is critical. You know, 
if you want to go visit the parks, but if you don't go this 
year, you go next year, OK, maybe it is not as terrible. But in 
a child's life, you can't opt out of a school trip, and I am 
not minimizing it for an adult, but I think it makes it much 
more critical when you are dealing with education.
    Mr. Pearce. Thank you. Ms. Masica, are you holding up OK? I 
mean, this is rigorous stuff, and you should not be by yourself 
here. We have many years' worth of problems that people are 
talking about, and we appreciate you being the messenger, and 
we recognize that you are the messenger. These are difficult 
subjects to message back, which is the reason I am going to put 
that into the written letter.
    I have been critical of the National Park System polls. I 
don't want to take away from the good things the parks do, but 
I have made comments constantly that their polls don't talk to 
the people who are not being invited in or who are not able to 
get in. You hear that point coming up, and so that might be one 
of my two points that I put in the letter. Please be aware 
there is a great amount of sentiment that is kind of bubbling 
to the surface, and I appreciate the restraint of everybody 
here. We could start piling on very hard, and we have a person 
here who is trying to work through the problems with us, so I 
appreciate your restraint, every single one of you, but these 
are difficult circumstances. Ms. Schacter, the reason we are 
having the hearing is that I recognize that too often we have 
left our citizens unspoken for, and they are individual 
sheriffs.
    It is our job. We have failed in our job of oversight, I 
will tell you that 100 percent. If we had asked more insistent 
questions earlier in the process, we wouldn't be dangling along 
at this stage of the game. And I agree with you on the timing, 
that just these kids are learning so fast so much.
    Mr. McCarthy, tell me, have you ever visited a park and 
related to me the things that you felt you picked up from the 
park. I am going to ask you to just describe to me what the 
benefits are to you being a silent parent, benefits of visiting 
a park, outdoors or whatever. Give a stab at it and see.
    Mr. McCarthy. Sure, and I think I will use it to actually 
tell a positive story that I think you will appreciate, Mr. 
Chairman, kind of about, you know, park officials having really 
strong rules but interpreting them in a good, positive, right 
way.
    I visited several parks, and I am totally blind. I can't 
see anything. I don't even think I can see lights. But I think 
there is a sense of being where America's treasures are, being 
where the world's treasures are that you can still feel.
    I have been to Istanbul, Turkey, and for those who haven't, 
you know, it is the crater of history, and you know that 
whether you can see it or not, and our parks have the same--you 
know, Congress has chosen and designated them because of their 
significance to us as Americans, and you do feel that way 
whether you can see them or not.
    I guess several years ago I visited Crater Lake in Oregon, 
and I had a dog as a mobility tool, and was doing camping 
with--I was the only blind person in the group, there were five 
or six of us, and all the signs at Crater Lake are very clear. 
No animals, no animals, no animals. Nothing can drink from this 
water. Nothing can touch this water. This is pure and 5,000 
years old and on and on and on and on.
    So I walked in with my dog, and nobody said anything, and 
the whole time I am like, oh, my basic attitude was, you know, 
I have a right to have him, and I am going to bring him in 
until there has to be a confrontation. Then I am just going to 
keep going. And never was, never was, never was. Got down--
hiked down the trail down to the water. It was about 90 
degrees. The dog was thirsty as he could be, and I was like I 
have to give him water, but you are not supposed to put 
anything foreign into this lake, but my God, my dog is going to 
die if I don't give him water.
    So I dipped in his bowl and I gave him water. Well, first I 
saw a ranger, and I said, you know, I have to do this, and the 
ranger sort of misunderstood me, and he say, well, you know, 
dogs drink out of the toilet all the time. This water is really 
pure. Don't worry about it.
    I said, no, I am not worried about the dog. I was worried 
about you guys having trouble with it. And he said, well, come 
on, gosh, you know, he has come down this trail and he is 
thirsty. And so that is a--you know, that was a really positive 
experience. I was totally afraid to get the opposite.
    So you know, it goes both ways, and I guess--and most of my 
experiences in the parks are neither positive nor negative. I 
think a lot of disabled people go with people who can make the 
information accessible to them, whether it is or isn't in the 
park.
    I guess I would close by saying, you know, when I was a 
kid, because I was born blind, parents didn't think like Ms. 
Schacter thinks. They thought, well, this is how it is, and we 
do the best we can with our kids and we try to make them have a 
positive experience.
    It is probably parents like Ms. Masica now, which were not 
mine and most of my contemporaries, that have an awful lot to 
do with changing culture, including the culture of people with 
disabilities to say we really do have a right to the enjoyment 
of these activities that are there for all Americans.
    Mr. Pearce. Thank you so much.
    Mr. Howarth, if you would be sure this piece of the 
transcript gets into the hands--in with this letter we send to 
Ms. Mainella.
    I would really encourage her to send that one segment where 
the positive impact is--I think people should feel and see the 
emotion. Most people, both who are on the positive side of 
recognition of access and those who would be kind of dragging 
their feet, it is significant.
    By the way, I am going to give each one of you a chance to 
kind of wrap up here at some point in a couple of minutes, so 
you can be organizing your thoughts, but a couple of minutes 
each, not that we are going to wrap up in a couple of minutes. 
We will probably drag this thing out for another half-day with 
you.
    Ms. Christensen.
    Ms. Christensen. Thank you, and thank you, Mr. McCarthy, 
for bringing up the issue about the employees with 
disabilities, because I think that is also a very important 
part of this issue. I just have one other question.
    Ms. Masica, I understand that the NPS website is being 
updated, being done, and you all are taking steps to make sure 
that this website is more user friendly and informative to 
persons with disabilities?
    Ms. Masica. Ms. Christensen, I am not aware of the 
specifics of what the updates are going to be to the website, 
but I certainly will be going back and take back the message.
    Ms. Christensen. Take back the message of this hearing?
    Ms. Masica. Yes, ma'am.
    Ms. Christensen. Thanks. Thank you, Mr. Chairman.
    Mr. Pearce. Ms. Schacter has mentioned the lack of the 
system monitoring itself. I mean, it is our function to an 
extent, but Ms. Masica, we are seeing the system break down. I 
am not going to ask it because it gets a little charged up, but 
if I ask her the same questions I asked you, ``How does the 
system work?''and ``What is the process for accepting 
complaints?'', I would suspect that it would be somewhat 
different. You gave me a manager's explanation of the process, 
and what I was getting at was I suspect that the system is not 
overly responsive.
    I mean, at some point managers have to move past the rules, 
past the structure that is written in a book, and get down and 
start grinding out the difficult answers that are out there. 
Again, I think that would be a very positive outcome for you to 
go back and say, look, yes, we have a nice sterile process that 
says we do this, we do this, we do this for the complaints, but 
we don't really get down and cure the complaints one by one as 
she goes to the park or as Mr. McCarthy or whatever. There are 
positive things.
    The reason I want to go back is that I am trying to set up 
my schedule to go back to the west coast. I tell you I want my 
brother--he was on the Access Board--to go out and go to that 
big tree in the middle of Sequoia. I forget the--General 
Johnson or Sherman or somebody, General something or other--
General Chaos when we get there with my brother.
    [Laughter.]
    Mr. Pearce. It touches you spiritually to see that stuff, 
and to go out to those falls. You all have done a really good 
job of making those two pieces accessible, and I will tell you, 
I think I am no different than the rest of the people in the 
world.
    When my brother got in a wheelchair, it was a learning 
curve for all of us. When he was in college, it was just the 
first day back in a chair, and he was OK, and I am running him 
across a busy intersection in our hometown. I did not see the 
little things that stick out for your feet to be on, or at a 90 
degree angle to the pavement that I was about to hit and so we 
hit that, and I dumped him out right in the middle of the 
street, and people were driving by cursing, throwing the finger 
and stuff, but you could just see me.
    Another time I put him up on the wing of the airplane. I 
have a low-wing airplane. I knew that he probably was never 
going to get the experience of being upside down in an 
airplane, and everybody should have that experience. So, we 
figured out how to put him up on this low-wing airplane and get 
some tug-of-war going, pull him through the cockpit and into 
one of the seats, and that was the most ridiculous thing that 
ever happened, but we did get him upside down in an aircraft.
    The fact that he could go out to the parks and see General 
Sherman and see these falls, it is stunning to me, and I think 
each one of the people here would recognize that. So it looks 
like we have Mr. Harding easing back to the table. Would you 
like to make a comment, sir?
    Mr. Harding. Yes, sir. Thank you. I am sorry. I have to 
catch a flight back to Tallahassee.
    Mr. Pearce. All right. Give us your two points.
    Mr. Harding. Fort Lauderdale.
    I would first like to encourage you to assist us with our 
rulemaking process, and consequently also with the Department 
of Justice as they move on to their component, and then, 
finally, research funding for trail accessibility because as I 
am sure you are well aware that access in the outdoor 
environment comes in many shapes, sizes, colors, and forms, and 
to find the best prologues for the diversity in our outdoors 
would greatly assist the access needs for all persons.
    Thank you, sir.
    Mr. Pearce. Fair enough. I appreciate that, I appreciate 
you coming in today. This has been a very worthwhile hearing 
for us.
    I think what I would like to do is go straight on down the 
line and let us have everyone give their comments, and Mr. 
Robb, if you haven't escaped, you can get on the end down by 
Ms. Starnes. Again, if each one of you takes two minutes, we 
are looking at another 15 or 20 minutes, and then I will 
probably have a lot more hot air to express, so we will just 
tighten it up just a bit. Just give bullet point-type thoughts, 
the thing that you would like to put in the letter, and we have 
already got a couple there.
    Mr. Kerr, lead away.
    Mr. Kerr. Mr. Chairman, I will tell you that I do not 
believe the problems with accessibility rest in the members of 
the National Park Service present with us here today. 
Accessibility, the notion of accessibility must permeate the 
entire Park Service. They need to adopt the attitude of what 
can we do to promote accessibility. What harm would it do? They 
don't do that.
    What they do is, and I am not talking about those here 
today, I am talking about those that are out in the field, they 
say ``Why should I?''. They say, ``You can't do that.'' They 
don't say, ``How can we do this, or what shouldn't we do 
this?'' They say, ``You can't do that.''
    It is a very rigid mindset that exists out there today.
    Last month we were in a law school where they promoted 
assistive technology in a courtroom. Every single possible 
piece of technology that exists today was used in that 
courtroom, including the Segway, which was used by a Federal 
judge to deliver closing arguments, a Federal judge with 
multiple sclerosis. There were many Federal agencies in 
attendance down there to witness the assistive technology for 
sight, for hearing impairment, for mobility. For virtually 
every kind of disability there was a solution there.
    But there was no one there from the National Park Service. 
You must want to be accessible. It must permeate the 
organization. With all due respect, she said that they were 
looking at reasons--places where the Segway might be able to be 
used. There is no place where it shouldn't be able to be used. 
There is no possible explanation, no reasonable expectation for 
someone to say, ``It is not appropriate here. It is not 
appropriate here.''
    If they can't get over that hurdle, if they can't get over 
that hurtle, what help is there for other hurtles that face 
that are much more difficult, require much more coordination 
and a comprehensive solution, and so I am concerned that we 
will be back here a year from now or two years from now telling 
stories that another park superintendent said no. Another park 
superintendent said, ``I don't care.''
    My concern is that it is not those that are here with us 
today, but there is a permeation there that needs to be 
addressed. Thank you.
    Mr. Pearce. Thank you very much.
    Ms. Schacter.
    Ms. Schacter. The two questions that I would like included 
in the letter is: How do we ensure that all three components 
for access for the hard of hearing and deaf, assistive 
listening devices, that means head sets and neck loops, 
captioning, and qualified interpretation are in place in each 
park? All three things, not one or the other, must be at every 
park every time there is an audio output.
    The second question: How do we have accountability in 
monitoring with appropriate training at each park? It cannot be 
that a superintendent doesn't want to do something and that 
there is just no recourse. That is just not acceptable.
    Then just as my conclusion, I would like to know when Ellis 
Island is finally going to be up to speed. It is the gateway to 
America, and it is ridiculous, it is already over a year, and 
there is still no captioning. I can turn captioning around for 
a film in 24 hours. I can get an assistive listening device 
system into a theater in 24 hours. Why is it taking over a 
year?
    Mr. Pearce. Thank you.
    I would just note, Mr. Kerr, if we follow through on the 
accessibility, then that is the first step in making sure that 
we are not here a year from now doing a kind of ``warm up the 
old hash'' deal. OK. Fair enough.
    I appreciate your purpose, Ms. Schacter. It answers a 
question as well as gives one. Thanks.
    Mr. McCarthy.
    Mr. McCarthy. I think that the Park Service would go a long 
way if it gave prominence internally to individuals with 
disabilities and had them perhaps involved in disability-
related complaints, and in education of park officials.
    Is it great that Mr. Robb with the Research Center at 
Indiana University, I am a proud Indiana resident originally, 
so I appreciate that. But it is great to have an outside 
entity, and Ms. Susan mentioned, you know, that they 
appreciated that relationship, but there needs to be internal 
relationships.
    It is often said in the disability world nothing about us 
without us, so ask us. You know, as the researchers, but ask 
the people that are going into the parks. Get people involved. 
I think you are right, Mr. Chairman, you know, use people here. 
We can recommend other people. We certainly can dial. I think 
that is really, really critical.
    I guess my second thing would be you don't--people in the 
parks and all over the government don't know really what 
peoples' disabilities--well, I guess that is the first, you 
know, but I think that is the real key. Include the disabled 
community in discussion of what access really means. I think 
that to the extent the parks do that, access for all of us will 
improve over the period.
    I would close by congratulating you, Mr. Chairman, on 
getting your brother upside down in that plane. As somebody, 
you know, and I think experience whatever it is, blind people 
all want to drive cars but we can't do it.
    Mr. Pearce. Yes.
    Mr. McCarthy. So there is no experience potentially too 
dangerous. I comment you for strapping him in and getting him 
over there.
    Mr. Pearce. You have fun with me, since I might be too 
dangerous to fly with but----
    [Laughter.]
    Mr. Pearce. Thank you, sir.
    Now, Ms. Starnes.
    Ms. Starnes. Thank you, Mr. Pearce.
    I think it is wonderful that Ms. Masica said that they 
already have an advisory system in place, an advisory committee 
that meets twice a year. It may mean that once you provide your 
letter that there will be more opportunities for them to 
dialogue and work on the issues that we have raised.
    Certainly having notice of when those meetings are being 
held, I am sure that there are a lot of us here and our 
constituents who would be willing to sit back as observers and 
offer as we are invited to do so information that is going to 
help the process that that advisory committee undergoes when 
they do meet.
    Possibly, Ms. Masica, you want to issue advisory letters in 
the way that DOT does to the airlines, making sure that they 
are up to speed, saying this is not a rule yet but it certainly 
is a precursor maybe to a rule, and help them build their 
relationship with people with disabilities so that it is more a 
relationship between a customer and somebody who wants to 
provide a service or an opportunity rather than one of 
confrontation, and possibly the formation of local advisory 
committee with the supervisor in charge of that would help 
begin to develop more sensitivity to who their local customers 
are, and I suspect that those are going to be the ones who are 
more likely to visit the parks are the ones who are going to be 
right there in your area.
    So having local advisory committees either in conjunction 
with the Center for Independent Living or other individuals 
with disabilities that the community may be able to advise on 
would help develop that kind of sensitivity, again in a way 
that says you are my neighbor, you are in my town, you are in 
my city, you are in my area, and I want to help you make this 
experience better not only for me, but for people who come from 
out of town to visit as well.
    Mr. Pearce. Fascinating. I would ask that the idea of the 
advisory letter be one step short of the director's order or 
something like that. We are not going to come out and back 
anybody up, but if we keep getting those complaints in the 
system, if we can't let folks know about the ALDs, assistive 
listening devices, when they come through the door, we are 
going to come down, we are going to do something. Just an 
advisory letter to the system that we are listening and if we 
don't start curing, something is going to happen.
    That is the reason I love having these people come in from 
around the country, because we get great ideas.
    On your advisory panel or committee that you have, how many 
blind people are on that committee? I mean, we could work our 
way down through each disability, but I am getting back to Mr. 
McCarthy's point--why don't you include the people when you are 
talking about the rules?
    I know Mr. Kerr is a little scratchy and hard to deal with, 
but why don't you put him in the room when we are talking about 
stuff? That is my point.
    Ms. Masica. Understand, Mr. Chairman, and we will certainly 
do that.
    The group that is formed is an internal, it is Park Service 
employees, and it is accessibility coordinators from the 
various regions and the centers that work, that handle the 
interpretative and the physical access side of the equation for 
the projects in the Park Service, and I don't believe there is 
anybody who is visually impaired that----
    Mr. Pearce. You see Mr. McCarthy has a point for every 
class of disability.
    Ms. Masica. Absolutely. I am being corrected--there is 
somebody on there who is visually impaired.
    Mr. Pearce. OK.
    Ms. Masica. People who really know.
    Mr. Pearce. But the point is well made that----
    Ms. Masica. Absolutely.
    Mr. Pearce.--if you are not listening to these people that 
are scratchy and hard to get along with because they are trying 
to be the sheriff all the time, that is probably the reason we 
are having difficulties.
    Mr. Robb.
    Mr. Robb. Yes, Mr. Chairman.
    Mr. Pearce. I didn't mean to forget you. I got a little bit 
distracted there.
    Mr. Robb. That is all right.
    I think that to effect change the priority for 
accessibility has to be raised at the park level. I really 
believe it has to come from the unit level, and I believe that 
there has to be accountability. There has to be some type of 
accountability that will push the button of the superintendents 
like life safety issues do, or what life sustainability does, 
or resource preservation does, and I don't have the answer to 
that, but I believe that that is the first thing.
    The second thing, I really believe that what we have found 
in turning over 1,500 National Park Service people is that we 
do create zealots. These people go out of there and they are 
affected greatly by the opportunity to interact with our 
presenters, people with disabilities, including your brother. 
Larry Blummer on our staff has a visual impairment. He is the 
individual on the advisory committee for the Park Service, so 
we do involve very profusely people with disabilities in our 
training, and those training programs, I think, probably--
opportunities make a big impact.
    Unfortunately, training dollars are very difficult, very 
hard to come by in the Park Service, and I am sure in all 
Federal government.
    Mr. Pearce. That sounds fair enough.
    There are a couple of pictures up here of access. Andrew 
has done a pretty good job. Where is the first one going, 
Andrew?
    That is out to the Yosemite, to the falls. Actually, on 
both of these, occasionally the grade goes a little bit above 
what the ADA requirements are, but they are aware of that. My 
feeling is if we don't get it perfect the first time, we have 
plenty of things that we can do rather than tear something out 
and change the grade by a degree. I think most people with 
difficulty getting around in wheelchairs or on Segways or 
whatever would say, you know, just get it close and then we 
will get it perfect some day.
    If you all will sign up and give us an e-mail address, I 
would like to have the letter e-mailed so that we get your 
points pretty close to the way that you have suggested them.
    Then I am going to also request, Ms. Masica, that after we 
get the written response to these things, let me try to get the 
same two panels back together on a telephone conference. And 
when we begin to discuss things that you all are doing to 
address these issues, let us not let this drag out and slip 
back into the status that Ms. Schacter has got to be the one 
sheriff for all the hearing impaired people in the country, and 
Mr. Kerr, for all the Segway people, and Mr. McCarthy.
    I mean, let us make some headway, and let us maybe consider 
a communication that we would have available that goes to the 
park system itself. I really do want some of this testimony to 
go to the people around the country who would be just a little 
bit strong in interpreting, that we don't need more people, 
especially people in wheeled vehicles, especially people that 
we have to worry about stepping off the trail. I would like to 
see if we can get that into the hands of all 300 
superintendents, and we will just begin that little cultural 
shift if we can.
    Is that fair enough?
    Ms. Masica. Absolutely, Mr. Chairman. I think that is 
imminently reasonable, and something that we can do. I can tell 
you that I chair an internal group that reviews Park Service 
construction investments on a regular basis, and the kinds of 
questions I ask will definitely be broadened by what I have 
heard today.
    Mr. Pearce. And I think you need to pass along the pent-up 
emotion, and the reason I asked Mr. McCarthy is because I 
suspect that if we talked about something good, that there is 
going to be that tap into this wellspring of positive emotion 
when we just try. And if the system can begin to try, then I 
think you are going to find that you have more partners to 
accomplish what we all would like accomplished rather than 
detractors in the system.
    But I will continue, as the Chairman, an opportunity to 
work with you on these issues--whether positively or 
negatively, whichever we need to. I hope you trust that.
    I think that we have had a stunning day and I appreciate 
the participation. Be sure that I get your phone numbers 
because I really will follow through, and we will do this 
conference call a month, two months down the road, and we will 
talk about the ways that we are trying to make sure this is not 
just some more goulash that we warm up a year from now. Fair 
enough.
    Thanks to every single one of you. I appreciate it.
    If there are no additional comments, this hearing will be 
adjourned.
    Whereupon, at 12:25 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
